           REDACTED VERSION




 FOLLOW-UP AUDIT OF THE DRUG
ENFORCEMENT ADMINISTRATION’S
   LABORATORY OPERATIONS



       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 04-17
             March 2004
                                 REDACTED VERSION


             FOLLOW-UP AUDIT OF THE DRUG ENFORCEMENT
             ADMINISTRATION’S LABORATORY OPERATIONS*

                                EXECUTIVE SUMMARY

       The Drug Enforcement Administration’s (DEA) forensic laboratories
analyze evidence to support the investigation and prosecution of drug-
related crimes and the development of intelligence related to drug
trafficking. They also perform research pertaining to the analysis of
controlled substances. The DEA’s Office of Forensic Sciences operates seven
regional and two specialized laboratories. Three sub-regional laboratories,
one of which is mobile, supplement the seven regional laboratories.1

       Most exhibits received by DEA laboratories come from DEA
investigations and joint investigations between the DEA and other agencies,
but laboratory customers include other federal, state, local, and international
law enforcement agencies. The DEA laboratories performed more than
240,000 analyses on evidence exhibits during fiscal years (FY) 2000 through
2002, with a staff ceiling of 422 laboratory positions for FY 2002. (The
ceiling for FY 2003 is virtually the same.) The cost of operating the Office of
Forensic Sciences and all the laboratories for FY 2002 was about $51 million,
and was nearly $60 million for FY 2003.

      The specialized laboratories focus on research, the development of
information for intelligence purposes, and computer and other digital
exhibits. The Special Testing and Research Laboratory (STRL) performs
research related to the analysis of controlled substances, analyzes evidence
exhibits from international sources, and analyzes samples of seized drugs to
determine the sources of substances for intelligence purposes. In addition
to analyzing exhibits for controlled substances, the STRL also performs
toolmark and logo analyses of seized evidence.2 The Digital Evidence
Laboratory (DEL) retrieves digital information from electronic devices for
investigative and intelligence purposes.

       1
          Regional laboratories are located in New York City; Largo, MD; Miami, FL; Chicago,
IL; Dallas, TX; San Francisco, CA; and San Diego, CA. The specialized laboratories are in
Sterling and Lorton, VA, both part of the metropolitan Washington, D.C. area. The sub-
regional laboratories are in Kansas City, MO, and San Juan, PR, with the mobile laboratory
currently stationed at El Paso, TX.

       2
           Toolmark analysis is the analysis of tablets for machine and other tool markings,
similar to ballistics analysis. The tracking of “designer” or “proprietary” logos on packaging
helps identify sources of substances.

*Because this report contained information designated as “Law Enforcement Sensitive” by
the Drug Enforcement Administration, we redacted (whited out) that information from the
version of the report that is being publicly released. Where such information was redacted
is noted in the report
                            REDACTED VERSION



       The regional laboratories analyze domestic law enforcement exhibits to
identify controlled substances and latent prints. Laboratory personnel
provide expert testimony in court, and technical advice and support to law
enforcement at seized clandestine laboratories and other crime scenes. The
regional laboratories maintain custody of most controlled substances seized
by DEA field offices until the substances are no longer needed to support a
case, and then they are destroyed.

       The DEA laboratory system has expanded the types of services
provided since the agency was created in 1973. The laboratories have
always analyzed evidence to identify controlled substances. The DEA’s
latent print program began later with four positions spread over three
laboratories to supplement services that were provided by the Federal
Bureau of Investigation (FBI). The DEA expanded the latent print program
in 1991 to six laboratories to improve the timeliness and responsiveness of
latent print services to its field offices. The DEL began as a unit of the STRL
in 1994 and was created as a separate laboratory in March 2003.

Scope of OIG Audit

      This audit was performed as a follow-up to Office of the Inspector
General (OIG) Report 95-18, Drug Enforcement Administration’s Laboratory
Operations, issued in May 1995. The prior audit identified weaknesses in
laboratory facilities but found DEA laboratory operations and management
controls to be satisfactory, with customer satisfaction ranging from favorable
to excellent. The OIG recommended that the DEA consider consolidating the
regional laboratories if adequate funding for replacing the facilities was not
provided, and enhance certain management controls, including procedures
to reduce the time between completing analyses and returning exhibits to
evidence vaults. We evaluated problems identified in the previous report,
including specific recommendations related to facilities.

      Our objectives for this audit were to evaluate how effectively DEA
forensic services support the investigation and prosecution of drug cases and
the gathering of drug information for intelligence purposes, and how
effectively DEA laboratories manage evidence and other controlled
substances to prevent loss or compromise.

       We focused our work on the regional laboratories that analyze and
maintain custody of evidence submitted by domestic law enforcement
agencies. We visited DEA Headquarters in Arlington, Virginia; the STRL in
Sterling, Virginia; and the Southeast, North Central, South Central, and
Western Laboratories in Miami, Chicago, Dallas, and San Francisco,
respectively.

                                     - ii -
                                 REDACTED VERSION



Effectiveness of Services

      We found that DEA laboratory services were very effective overall and
the quality of work was well managed. The laboratory customers we
surveyed about the outcomes and timeliness of laboratory services on 635
specific exhibits reported overwhelmingly that DEA services contributed to
the investigation and prosecution of cases. Customers also reported that no
laboratory evidence had been successfully challenged through prosecution.
The DEA had established standards and procedures to ensure the validity of
results, reviewed laboratories to ensure compliance with the standards, and
tested its analysts through proficiency testing programs. The laboratories
have been accredited by the American Society of Crime Laboratory Directors
/ Laboratory Accreditation Board. This accreditation means that the
laboratories and their analysts meet standards the Laboratory Accreditation
Board has determined are appropriate to support valid forensic results.

       We found that DEA laboratory services were generally performed in
time to be useful to customers; however, turnaround time could be
improved, especially for latent print and digital evidence services.
Customers reported that 99 percent of drug services, 93 percent of latent
print services, and 82 percent of digital services were provided in time to be
useful to the case. The average number of days from receipt of exhibits in
the laboratories to completion of analysis during FY 2002 varied significantly,
from 41 days for drug analysis to 331 days for digital analysis. The average
number of days for latent print analysis for those exhibits and laboratories
we were able to assess ranged from 72 to 258 days.3

      The longer turnaround times for latent print and digital services
appeared to be caused by a lack of resources. Although laboratory
customers indicated the longer turnaround times did not ultimately affect
most case outcomes, they expressed a desire for faster analyses. One DEA
customer believed the lack of timeliness on a digital evidence exhibit had
diminished the outcome in one case. This Special Agent believed that a
conviction for a more serious crime might have resulted from a plea
agreement in the case had the analysis of digital evidence been completed in
time to be considered in the agreement.

       Latent print services performed during FY 2002 resulted in the
identification of suspects in less than 5 percent of all exhibits analyzed by
the DEA laboratories. Latent prints suitable for comparison were frequently



       3
          This assessment included some, but not all, exhibits analyzed for latent prints due
to data system limitations described in this report.
                                            - iii -
                           REDACTED VERSION


not developed because of the nature of the materials being examined and
because procedures allowed many people to handle exhibits prior to
examination. The number of identifications may also be limited because
fingerprint specialists did not have direct access to all the automated
databases that might be useful for matching prints. Moreover, supervisors
of fingerprint specialists were not trained in latent print examinations.

      Our recommendations focus on maximizing the results of latent print
examinations and improving the timeliness of latent print and digital
evidence services. They include increasing the expertise of supervisors of
fingerprint specialists in the discipline of latent prints.

Management Controls Over Evidence and Other Controlled
Substances

       To evaluate management controls over evidence and other controlled
substances, we interviewed staff, observed procedures, and tested various
specific controls. Among the tests of controls, we: 1) verified the existence,
labeling, and weights of 370 exhibits from evidence inventories; 2) reviewed
case file documentation accounting for the receipt, analysis, and disposition
of 218 exhibits; and 3) determined the length of time that 631 exhibits had
been out of the vault for analysis.

       We found that DEA laboratories generally maintained effective control
and accountability over evidence and other controlled substances. The DEA
established procedures for laboratories to control and account for the
receipt, storage, transfer, and disposition of evidence exhibits, and
laboratories complied subs tantially with the requirements. The DEA had
identified and corrected procedural weaknesses that had caused a small
number of inventory discrepancies prior to 2002. Our testing at the regional
laboratories indicated that the controls in place had resulted in only minor
instances of non-compliance that did not constitute material control
weaknesses. The DEA standard we found most frequently unmet was the
policy that exhibits be destroyed within 90 days after laboratories received
authorization for the destruction. We found that more than 10 percent of
sampled exhibits were out of compliance with this DEA requirement.

       The laboratories use two automated information systems to record and
retrieve information about exhibits. The System to Retrieve Information on
Drug Evidence (STRIDE) is used as a central repository of inventory and
analytical information about exhibits. The other, the Laboratory Evidence
Management System (LEMS), is used to track the receipt, movement, and
ultimate disposition of exhibits within individual laboratories. There is no
automated interface between the systems, and laboratory personnel enter


                                    - iv -
                           REDACTED VERSION


duplicate data into both systems, in addition to maintaining various hard
copy logbooks and forms, to maintain accountability over evidence and other
controlled substances in their custody. The combination of systems is
extremely inefficient.

      The DEA has begun a project to integrate its information management
systems for tracking exhibits. The new Laboratory Information Management
System will use radio frequency identification tags and scanners to track the
movement of exhibits into, exiting, and throughout the laboratory. This
capability should ensure that the location of any exhibit at any time can be
determined, and that no exhibit in a laboratory is lost or destroyed
inadvertently. If designed and implemented properly, the integrated system
should greatly improve the efficiency of control and accountability.

      Our recommendation is that DEA ensure that all exhibits are destroyed
within the 90-day standard.

Facilities

      Our 1995 audit found that DEA laboratories were generally housed in
aging facilities, five of which needed to be replaced. The DEA planned to
replace these five laboratories with new facilities. Our approach for this
audit was to: 1) determine if the DEA had completed its replacement project
and 2) assess conditions at the laboratories we visited.

       DEA laboratories are located throughout the United States. The STRL
is located in a new stand-alone building in the Washington, D.C.
metropolitan area. (The locations of the regional laboratory facilities are
listed in footnote 1.) The facilities in New York City, Miami, Chicago, and
San Francisco occupy space in office buildings. The Mid-Atlantic, South
Central, and Southwest Laboratories are housed in new stand-alone
buildings. The DEL resides in a new building that also houses the DEA’s
Office of Investigative Technology.

        We found that since 1995 the DEA has replaced the STRL, Mid-
Atlantic, South Central, and Southwest Laboratories with new stand-alone
buildings and relocated the North Central Laboratory to modified space since
the prior audit. These laboratories were designed to meet current standards
for laboratory design, safety, security, and health. We visited the new
facilities for the STRL, North Central, and South Central Laboratories. We
found in these locations adequate to excellent conditions to support the work
of the laboratories.




                                    -v-
                                REDACTED VERSION


        The Southeast Laboratory in Miami, however, has not yet been
replaced or relocated, and has serious ventilation problems. A study
performed by the U.S. Public Health Service in September 2002 found the
facility unsuitable for laboratory use for health and safety reasons and
recommended the DEA relocate the laboratory prior to construction of a new
facility.4 The DEA’s plans to build a new facility in Miami by January 2002
were blocked by condemnation proceedings initiated by the Department of
Defense (DOD), which leases land adjoining the proposed laboratory site.
The DOD was concerned that the security of its Southern Command would
be compromised by a building that would block a view of trespassing
detectors. Congress approved the use of carry-over funds from prior fiscal
years to fund an alternative plan to replace the Southeast Laboratory.

      The Western Laboratory, housed in an old office building, also had a
history of ventilation problems, but has undergone expansion and
modifications to improve conditions. No ventilation assessment has been
performed since the improvements, and some laboratory employees were
not convinced the vault ventilation was adequately improved. Not only does
poor indoor air quality pose potential health risks, but employees at the
Southeast and Western Laboratories are not tested as part of the DEA’s
employee drug testing program because potential indoor air contamination
would render the results unusable.

     Additionally, we found security weaknesses at the Southeast and
South Central Laboratories. [DELETED]



      Our recommendations are for the Southeast Laboratory to relocate to
a suitable facility as soon as possible, for the DEA to ensure that
improvements are made to correct ventilation problems at the Southeast
Laboratory pending relocation, for the DEA to ensure that recent
modifications at the Western Laboratory have corrected ventilation
problems, and for the DEA to correct security weaknesses identified at the
Southeast and South Central Laboratories.




       4
          We found nothing to suggest that any ventilation problems affected the validity of
laboratory test results.




                                           - vi -
                                               REDACTED VERSION


                                                    Table of Contents

INTRODUCTION..........................................................................................................................1

   History and Mission.........................................................................1
   The Office of Forensic Sciences .........................................................2
   Laboratories and Services ................................................................3
   Customers.....................................................................................5
   Transaction Volumes and Staffing......................................................7
   Information Systems.......................................................................9
   Laboratory System Strategic Plan.................................................... 11
   Prior Audits ................................................................................. 11

FINDINGS AND RECOMMENDATIONS ...............................................................................13

   FINDING 1: EFFECTIVENESS OF SERVICES ....................................... 13
              Introduction................................................................ 13
              Drug Services ............................................................. 16
              Latent Print Services .................................................... 20
              Digital Services ........................................................... 28
              Intelligence Services .................................................... 30
              Conclusion.................................................................. 31
              Recommendations ....................................................... 31

   FINDING 2: MANAGEMENT CONTROLS OVER EVIDENCE AND OTHER
   CONTROLLED SUBSTANCES ........................................................... 33
              Introduction................................................................ 33
              Information Systems .................................................... 34
              Control Procedures....................................................... 35
              DEA Oversight............................................................. 40
              Conclusion.................................................................. 42
              Recommendation......................................................... 42

   FINDING 3: FACILITIES ................................................................. 43
              Introduction................................................................ 43
              Laboratory Replacement ............................................... 44
              Current Conditions ....................................................... 45
              Conclusion.................................................................. 48
              Recommendations ....................................................... 49
                         REDACTED VERSION



APPENDIX I - AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY .............. 50

APPENDIX II - DEA CASE OUTCOMES QUESTIONNAIRE …………………..…..……54

APPENDIX III - DEA’S RESPONSE TO THE DRAFT AUDIT REPORT............. 55

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT .. 58




                                 - ii -
                              REDACTED VERSION


                                 INTRODUCTION

History and Mission

      The Drug Enforcement Administration’s (DEA) laboratory system was
established in 1973, when the functions of several federal agencies related
to controlling illegal drugs were combined to create the DEA. Forensic
resources that had served the former Bureau of Narcotics and Dangerous
Drugs became the basis for the DEA laboratories. Over time, the laboratory
system’s duties expanded to include forensic services to other federal law
enforcement agencies, such as the Federal Bureau of Investigation (FBI) and
the U.S. Customs Service, and other responsibilities such as assisting other
nations evaluate their forensic facilities.

      The DEA’s laboratory system directly supports the DEA’s overall
mission. The laboratory system’s mission statement states:

          The mission of DEA’s laboratory system is to provide analytical,
      intelligence, scientific and other forensic and administrative support,
      to Special Agents of the DEA, other federal law enforcement
      officers, and to the criminal justice system at large in order to assist
      with the enforcement of controlled substance laws and regulations
      of the United States.


       The laboratory system supports DEA programs carried out by DEA
headquarters, 21 domestic divisions, and 80 international offices. Those
programs include investigating and preparing for prosecution major
interstate, gang-related, and international violations; developing and
disseminating drug-related intelligence; coordinating with state, local, and
foreign law enforcement; reducing the demand for drugs; and providing
training for state, local, and foreign law enforcement officials.

      The DEA is operated pursuant to the Controlled Substances Act and
the Code of Federal Regulations (CFR), Title 21, Food and Drugs,
Chapter II – Drug Enforcement Administration, Part 1300. The Act and
regulation, however, contain no guidance directing the operation of the
laboratory system.

      The CFR classifies the controlled substances tested by the laboratories.
Schedule I substances are defined as substances with a high potential for
abuse, no currently accepted medical use in treatment in the United States,
and a lack of accepted safety for use under medical supervision. Examples
of Schedule I substances are heroin, LSD, and marijuana. Schedule II
substances are substances with a high potential for abuse, but with a


                                        -1-
                                 REDACTED VERSION


currently accepted medical use in treatment in the United States, and with
tendencies for abuse that may lead to severe psychological or physical
dependence. Examples of Schedule II substances include cocaine,
morphine, and methamphetamine.

The Office of Forensic Sciences

       The DEA’s Office of Forensic Sciences leads and oversees the
laboratory system by performing strategic planning, obtaining resources,
ensuring the quality of laboratory results, promoting research and staff
development, developing training programs, and managing the forensic
laboratories. The Office of Forensic Sciences coordinates with other DEA
divisions on policies, operations, information systems, facilities, inspections,
and investigations.

      The Office of Forensic Sciences also coordinates with law enforcement
agencies and professional organizations to improve services, share
information and methods, establish standards, and promote improvement.
These agencies and organizations include the Department of Homeland
Security, the Office of National Drug Control Policy (ONDCP), the American
Society of Crime Laboratory Directors / Laboratory Accreditation Board
(ASCLD/LAB), and several scientific working groups.

      The Office of Forensic Sciences co-sponsors and provides technical
oversight to the Scientific Working Group for the Analysis of Seized Drugs
(SWGDRUG). 5 The SWGDRUG is an international working group created in
1997 to recommend minimum standards for the forensic examination of
seized drugs and to seek international acceptance of the standards. The
Office of Forensic Sciences also participates in the Scientific Working Groups
on Friction Ridge Analysis, Imaging Technologies, and Digital Evidence.

      A Deputy Assistant Administrator heads up the Office of Forensic
Sciences. Two Associate Deputy Assistant Administrators, three Section
Chiefs, and a Quality Assurance Manager report to the Deputy Assistant
Administrator. Each of the laboratories is headed by a Laboratory Director,
who reports to one of the two Associate Deputy Assistant Administrators.




      5
          The co-sponsor with the DEA is the Office of National Drug Control Policy.


                                            -2-
                                  REDACTED VERSION



Laboratories and Services

      The DEA operates nine laboratories to perform forensic services and
research. Seven regional laboratories located throughout the U.S. work with
evidence submitted by the DEA’s domestic field divisions and other domestic
law enforcement agencies.6 Two additional laboratories, the Special Testing
and Research Laboratory (STRL) and the Digital Evidence Laboratory (DEL),
both located near the District of Columbia (in St erling and Lorton, Virginia),
address the following specialized needs:

   •   The STRL performs research, analyzes controlled substances for
       intelligence use, analyzes controlled substances from international
       sources, and analyzes toolmarks and logos on drugs and drug
       packaging. Work performed for intelligence purposes generates
       strategic intelligence through the analysis of drug samples obtained in
       the U.S. and foreign countries. The STRL’s drug signature programs
       analyze samples to determine processing methods, geographic origins,
       and manufacturers for heroin, cocaine, and methamphetamine. The
       STRL also operates the Source Determination Program, which analyzes
       toolmarks and logos on tablets, capsules, LSD blotter paper, and
       cocaine, heroin, and steroid packaging to determine manufacturing
       sources.

   •   The DEL was created as a separate laboratory in March 2003 from a
       unit that began in 1994 as the Computer Forensics Program, under the
       STRL. The DEL retrieves digital information from electronic devices
       and media, such as hard drives, compact and floppy disks, data tapes
       and personal digital assistants, for investigative and intelligence
       purposes. Such services are provided only by this laboratory.

      The seven regional laboratories and their locations are listed below.
Two satellite laboratories, located in Kansas City, MO, and San Juan, PR,
supplement the regional laboratories. The satellite laboratories are housed
in space in non-DEA facilities and are staffed by forensic chemists who are
employed and supervised by DEA staff. One mobile laboratory, located in




       6
           Each domestic field division supervises several district and resident offices. The
Caribbean Field Division in San Juan, PR, is classified as a domestic division. Several
international offices in Caribbean nations, such as Jamaica and Haiti, are affiliated with this
field division.



                                             -3-
                               REDACTED VERSION


El Paso, TX, is staffed on a rotating basis by regional DEA laboratory
personnel.7

                     Regional Laboratories and Locations
 Northeast Laboratory        New York City
 Mid-Atlantic Laboratory     Metropolitan District of Columbia (Largo, MD)
 Southeast Laboratory        Miami
 North Central Laboratory    Chicago
 South Central Laboratory    Dallas
 Western Laboratory          San Francisco
 Southwest Laboratory        San Diego
 Source: DEA, Office of Forensic Sciences.


      The facilities in New York City, Miami, Chicago, and San Francisco
occupy space in office buildings. The STRL, Mid-Atlantic, South Central, and
Southwest Laboratories are housed in new stand-alone buildings. The DEL
resides in a new building that also houses the DEA’s Office of Investigative
Technology.

      Regional laboratories analyze evidence, submitted by DEA field offices
and other law enforcement agencies, for controlled substances and latent
prints. Laboratory personnel also provide expert testimony in court and
technical advice and support to law enforcement agencies at seized
clandestine laboratories and other crime scenes. Regional laboratories
employ forensic chemists and fingerprint specialists to perform these
services.

       Forensic chemists analyze exhibits to identify substances and other
properties of the exhibits.8 When asked by law enforcement officials to
participate at a clandestine laboratory scene, forensic chemists are
responsible for ensuring that any chemical reactions in progress are safely
shut down.

      The DEA’s latent print program began in the late 1970’s with four
positions spread over three laboratories to supplement services that were
provided by the Federal Bureau of Investigation (FBI). The DEA expanded
the latent print program in 1991 to six laboratories to improve the timeliness



      7
         The mobile laboratory was deployed to Tucson, AZ in FY 2001 and was later
moved to El Paso.

      8
        In addition to suspected substances, exhibits may include items such as apparently
empty containers to be tested for trace amounts of drugs.



                                             -4-
                                 REDACTED VERSION


and responsiveness of latent print services to its field offices.9 Fingerprint
specialists examine exhibits to develop and identify latent prints. They may
be asked to test exhibits at a crime scene for fingerprints before others
handle the evidence. They also develop photographic film for DEA field
offices, and may be asked to photograph crime scene evidence.

      In addition to these forensic analysis responsibilities, DEA laboratories
maintain custody of all drug evidence seized by DEA field offices once it has
been submitted for analysis, with the exception of bulk marijuana and bulk
ephedrine.1 0 The laboratories receive, secure, account for, and eventually
dispose of all DEA evidence exhibits submitted for drug analysis. The
laboratories employ evidence technicians and scientific intelligence
technicians to help maintain accountability over evidence.

Customers

      The DEA field offices submit all DEA drug evidence, and some non-
drug evidence on which latent print analysis is being requested, to the DEA
laboratories.1 1 The DEA field offices also submit many exhibits that have
been seized in joint or cooperative efforts with state and local law
enforcement agencies. The DEA field offices also may request laboratory
support at crime scenes.

      Other federal customers of the DEA laboratories include the FBI; the
Bureau of Immigration and Customs Enforcement (BICE); the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (ATF); the U.S. Park Police; the
U.S. Coast Guard; and various agencies of the Department of Defense. 1 2 In
addition to submitting drug evidence for analysis to the regional laboratories,
the two Customs agencies, now part of the Department of Homeland

       9
           DEA officials reported that the DEA was not satisfied with the slow turnaround and
lack of priority from the FBI laboratory on latent prints. The DEA officials indicated the lack
of priority was understandable because of competing high-priority demands at the FBI and
the fact that expectations for developing usable latent prints are low for drug packaging.

       10
            The field offices prepare samples of bulk marijuana and ephedrine seizures to
send to laboratories for testing, and maintain custody of the bulk quantities. The field
offices also maintain custody of DEA non-drug exhibits. Non-drug exhibits submitted to
laboratories for fingerprint analysis are returned to the field offices after analysis.

       11
           The DEA considers all evidence submitted for drug analysis as drug evidence and
exhibits submitted for latent print or digital analysis only as non-drug evidence.

       12
           The former U.S. Customs Service was re-organized in March 2003 into two
separate agencies in the Department of Homeland Security: BICE and Customs and Border
Protection. During the audit period these agencies were called the U.S. Customs Service.



                                             -5-
                                 REDACTED VERSION


Security (DHS), also request latent print examinations. Federal agencies
have also requested and received crime scene assistance from laboratory
personnel. State and local agencies, such as the Metropolitan Police of the
District of Columbia (MPDC) and the Kansas Bureau of Investigation, also
submit drug evidence for analysis.

      The chart below shows the percentages of exhibits submitted to the
regional and digital laboratories, by customer, averaged for FYs 2000
through 2002.1 3 Exhibits submitted by DEA offices, including cooperative
and joint seizures with other agencies, have consistently represented about
two-thirds of the laboratories’ work. All other federal agencies combined
represented about another 24 percent, for nearly 90 percent of exhibits
coming from federal agencies. State and local customers accounted for
about 12 percent of all exhibits submitted for the 3 years, most of which
were submitted by the MPDC.


                   Exhibits Submitted by Customers, FY 2000 - 2002
                                                          U.S. Customs
                                                              14%

                                                                      FBI
                                                                      7%

                           DEA
                           64%                                           Other Federal
                                                                              3%



                                                               Metro Police of
                                            Other State and         D.C.
                                                Local               11%
                                                  1%
       Source: DEA, Office of Forensic Sciences, System to Retrieve Information on Drug
       Evidence (STRIDE). 1 4




       13
            The STRL is not included because most of the exhibits it receives to analyze for
intelligence purposes are samples of exhibits that were originally sent to the regional
laboratories by the customers represented in the chart.

       14
          The figures for DEA include exhibits submitted in joint and cooperative efforts
between DEA and other law enforcement agencies. Figures for the FBI include exhibits
submitted by the FBI and by joint FBI-Organized Crime Drug Enforcement Task Forces.



                                            -6-
                                  REDACTED VERSION


      Unlike most state and local law enforcement agencies, the MPDC does
not perform its own forensic testing of drug exhibits and does not send
exhibits to a state laboratory. The DEA’s Mid-Atlantic Laboratory performs
drug testing for the MPDC at no cost to the MPDC. The DEA has studied
alternatives to this arrangement, but previously concluded that it is best to
continue to provide these services directly to the District of Columbia.1 5

Transaction Volumes and Staffing

      The regional and digital evidence laboratories received over 200,000
exhibits from FY 2000 through FY 2002.1 6 These were primarily domestic
exhibits submitted to support investigations. The Mid-Atlantic and South
Central Laboratories received the largest numbers of exhibits. The Mid-
Atlantic Laboratory received about half of its exhibits from the MPDC.

                        Exhibits Received by DEA Laboratories
                                FY 2000 through 2002

                Laboratory         FY 2000      FY 2001      FY 2002
             Northeast                 7,956         8,117        8,571
             Mid-Atlantic             12,982        15,428       12,664
             Southeast                 7,458         8,971        8,915
             North Central             8,900         9,010        7,448
             South Central            11,570        11,790       11,910
             Western                   8,507         6,256        6,326
             Southwest                 9,148        10,502        9,131
             Digital Evidence            317           384          432
                     Total           66,838        70,458       65,397
            Source: DEA, Office of Forensic Sciences, STRIDE.1 7




       15
           DEA presented this conclusion in a decision paper dated December 9, 1994, based
in part on the unique relationship between the MPDC, which enforces laws, and the U.S.
Attorneys Office, which adjudicates cases for the District of Columbia.

       16
          This figure counts each exhibit submitted for both drug and latent print analysis
as one exhibit.

       17
           The table does not include exhibits submitted to the STRL because most of those
exhibits are samples of exhibits that were originally sent to the regional laboratories and are
already represented in the table. The figures include those drug exhibits that are submitted
for storage only and do not require analysis, as the laboratories serve as custodian for all
DEA controlled substances other than bulk marijuana and bulk ephedrine. Such exhibits
may be seized after being abandoned, with no case or suspect for the DEA to pursue.
Others may be multiple exhibits from a seizure, not all of which are analyzed.



                                             -7-
                                 REDACTED VERSION


      The table below reflects the number and types of services performed
by the laboratories on exhibits during the past three fiscal years. Exhibits
that were submitted for both drug and fingerprint analysis are counted twice
in the figures below. This is one reason the number of exhibits analyzed
each FY, shown in the table below, exceeded the number of exhibits
received. Another reason is that the numbers below include the exhibits
analyzed during FY 2002 that were received during the prior fiscal year.

                      Exhibits Analyzed by DEA Laboratories
                              FY 2000 through 2002

     Regional and Digital Laboratories
               Type of Analysis              FY 2000       FY 2001      FY 2002
     Drug                                        70,461       67,886        67,627
     Latent Print                                 6,543        7,530         5,160
     Digital                                        150          252           294
                     Total                        77,154      75,668        73,081

     Special Testing and Research Laboratory
                Type of Analysis         FY 2000           FY 2001      FY 2002
     Heroin Signature Program                  587               671           911
     Domestic Monitor Program                  707               535         1,195
     Cocaine Signature Program               1,281             2,236         2,125
     Methamphetamine Signature Program         637               111            97
     Source Determination Program            1,765               564           447
     Intelligence Sample Subtotal            4,977             4,117         4,775
     International Drug Exhibits               759             1,219         1,214
                      Total                  5,736             5,336         5,989
      Source: DEA Laboratory System Annual Reports.1 8

      The laboratories also perform other services, such as providing training
for law enforcement officers, providing controlled substances to law
enforcement for canine training, developing film, testifying, and assisting at
clandestine laboratory seizures. From FY 2000 through 2002, the
laboratories processed 765,466 photographic items (rolls of film, slides, and
enlargements), provided expert testimony at 2,156 court appearances, and
provided assistance at 568 clandestine laboratory seizures.

      The number of exhibits received by all laboratories increased about 36
percent between 1996 and 2002, with increases in fingerprint and digital
exhibits of about 52 percent and 198 percent, respectively. The increase in


       18
           The figures count exhibits submitted for both drug and fingerprint analysis twice,
once for each type of analysis.


                                            -8-
                                           REDACTED VERSION


drug exhibits was about 34 percent. Expenditures for the Office of Forensic
Sciences have grown from about $36 million in FY 2000 to almost $51
million in FY 2002, or almost 40 percent, and almost $60 million for FY 2003.

       Laboratory staffing allocations for laboratory and support groups, not
including supervisors, headquarters staff, or the STRL, increased since our
prior audit from 219 positions in FY 1993 to 318 allocated positions for FY
2003, an increase of about 45 percent. Staffing levels for all laboratory
positions, by laboratory, allocated for FY 2003 (including supervisors and the
STRL) are shown in the table below.


                                        Allocated Positions by Laboratory
                                                    FY 2003

            70
            60
            50
            40
            30
            20
            10
            0
                 Northeast    Mid-      Southeast    North    South     Western Southwest   STRL   Digital
                             Atlantic               Central   Central    Lab


       Source: DEA, Office of Forensic Sciences.

Information Systems

       The DEA laboratories use two automated information systems to
record and retrieve information about evidence.1 9 The System to Retrieve
Information on Drug Evidence (STRIDE) is an older DEA database originally
designed to record inventory and analysis information on drug exhibits.2 0 As
DEA laboratories expanded into the additional disciplines of fingerprint and
digital examinations, the DEA modified the STRIDE to record some data

       19
          Individual laboratories have created and maintain some additional information
systems containing local data about exhibits.

       20
            Technically the current system is STRIDE II, the enhanced version of the original
STRIDE.



                                                          -9-
                               REDACTED VERSION


about these exhibits. The STRIDE currently contains complete analysis data
only for the analysis of controlled substances. It does not contain analysis
information related to fingerprint examinations on drug exhibits, any results
of latent print analyses, or any analysis information about digital evidence
exhibits. During our audit, the STRIDE also did not contain inventory
information on fingerprint-only exhibits in one laboratory. The STRIDE
includes functionality for tracking exhibits from receipt through destruction.
Scientific intelligence technicians enter most data into the STRIDE.

       The Laboratory Evidence Management System (LEMS) is a DEA
database designed to track the movement of exhibits within laboratories,
when they are transferred out to agents or defense attorneys for court
purposes, and when they are destroyed. The LEMS creates and reads bar
codes associated with exhibits, and produces a variety of reports to support
complete physical evidence inventories, destruction, and other activities.
Evidence technicians enter data into the LEMS and scan bar-coded exhibits
after they are labeled; analysts scan coded identification cards into the LEMS
to track the movement of exhibits within the laboratories.

      The STRIDE was used as the central repository of information about
exhibits, and the LEMS was used to track the movement of exhibits in and
out of individual vaults and laboratories.

      Laboratory staff also entered inventory information about exhibits into
various manual logs and other records to help track evidence and actions.
Laboratories performed duplicate and inefficient data entry to keep the
various systems of records updated. The LEMS was intended to replace
manual recording on DEA-307 index cards, which serves the same
functions.2 1 However, the laboratories continue to maintain DEA-307 cards
to use for back up when the LEMS goes down, and because LEMS did not
always function as intended when it was implemented.

      The DEA initiated a contract in June 2003 to integrate its automated
and manual information systems and improve functional support to its
laboratories. As part of this integration project, the DEA plans to implement
radio frequency tags and scanners that should simplify accountability over
exhibits. The system should also make accountability far more efficient than
was the case during our audit. The system is scheduled to be pilot tested in
the summer of 2004.




      21
         The DEA-307, Evidence Accountability Record, is a 5” by 8” index card used to
record manually the movement of exhibits that is also recorded in LEMS electronically.


                                         - 10 -
                            REDACTED VERSION



Laboratory System Strategic Plan

      The DEA Laboratory System Strategic Plan for FY 2002 – 2007
presents the DEA’s assessment of its laboratory system and strategies for
improvement. The DEA obtained input from customers, consultants, and
laboratory managers and employees to help identify problems and develop
an action plan for improvement. The Plan calls for increased specialization
of supervisors over fingerprint services and vaults, increased staffing to
improve turnaround times to customers, and technological improvements for
matching latent prints.

Prior Audits

       The OIG published Audit Report 95-18, Drug Enforcement
Administration’s Laboratory Operations, in May 1995. This audit reported
weaknesses in laboratory facilities but found that DEA laboratory operations
and management controls were generally satisfactory. Customer
satisfaction ranged from favorable to excellent. The audit contained several
findings regarding facilities and controls over evidence:

   •   Several laboratory facilities were outmoded and overcrowded,
       although satisfactory for laboratory personnel to perform essential
       duties.
   •   Customers reported that laboratories provided timely assistance to
       their investigations, but several commented that faster turnaround of
       results would be helpful.
   •   Controls over exhibits and other controlled substances were
       satisfactory.

      The prior audit recommended that the DEA enhance controls over
evidence to ensure compliance with DEA policies on recording weights of
exhibits after analysis, and to reduce the time between completing analyses
and returning exhibits to vaults. The DEA responded by establishing policies
to address these recommendations and we found no material weaknesses in
these functions. The prior audit recommended that the DEA consider
consolidating its laboratories if it was unable to obtain funding to replace the
outmoded facilities. The prior audit also recommended that the DEA reduce
the Mid-Atlantic Laboratory’s workload by seeking alternate providers for
serving the MPDC. In response, the DEA did not concur with the latter two
recommendations. The DEA was able to obtain the funding needed to
replace regional facilities and continues to provide services to the MPDC;
therefore, no changes were made to these practices.



                                     - 11 -
                           REDACTED VERSION


       Earlier Department of Justice audits also found varying levels of
compliance with controls over evidence. Audit Report 87-14-SI, Drug
Enforcement Administration’s Internal Controls over Seized Evidence, April
1987, found that the DEA’s system of internal controls promoted accurate
accounting and adequate safeguarding of seized evidence by the division
offices and laboratories, although it allowed instances of non-compliance
with procedures. Audit Report 89-6, The Department of Justice’s Internal
Controls Over Seized Evidence, December 1988, recommended the Office of
Forensic Sciences ensure that physical inventories are performed at
prescribed intervals by persons independent of evidence custodial functions.




                                   - 12 -
                               REDACTED VERSION



                    FINDINGS AND RECOMMENDATIONS


FINDING 1: EFFECTIVENESS OF SERVICES

             We found that DEA laboratory services were effective and
      the quality of work well managed. The DEA has established
      standards and procedures to ensure the validity of laboratory
      results, reviewed laboratories to ensure compliance with these
      standards, and routinely tested its analysts through proficiency
      testing programs. The laboratories have been accredited by the
      American Society of Crime Laboratory Directors / Laboratory
      Accreditation Board (ASCLD/LAB). 2 2 DEA’s customers reported
      to us that the laboratory services provided resulted in
      appropriate case outcomes and analyses capable of withstanding
      legal challenges, and they were very satisfied with the services
      provided. However, we found that the turnaround times from
      receipt of exhibits to the completion of analysis were significantly
      longer for latent print and digital services than for drug analyses.
      In our judgment, longer turnaround times for latent print and
      digital exhibits were caused by resource limitations. Although
      laboratory customers indicated the longer turnaround times did
      not significantly affect most case outcomes, customers indicated
      they want the analyses faster. Procedures for handling latent
      print exhibits also could be improved to help identify more
      suspects. Although the nature of materials submitted often
      made it difficult to develop prints suitable for comparison, DEA
      procedures allowed many people to handle exhibits prior to
      latent print examination, increasing the possibility that print
      residues may be obliterated.

Introduction

      DEA’s regional laboratories analyze drug and latent print exhibits, and
the DEL examines digital exhibits, to support the investigation and
prosecution of drug crimes. The laboratories must analyze exhibits
accurately and report results timely to agents and prosecutors. The results
must be valid to achieve appropriate case outcomes and support expert
testimony.
      22
           The ASCLD/LAB operates an accreditation program for laboratories to
demonstrate that their management, operations, personnel, procedures, equipment,
physical plant, security, and safety procedures meet standards established by the
organization.


                                         - 13 -
                                  REDACTED VERSION



      To evaluate the effectiveness of regional laboratory services provided
by the DEA, we assessed how services contributed to the outcomes of
investigations and prosecutions, whether services were provided in time to
be useful to customers, how satisfied customers were with laboratory
services, and whether selected DEA controls over the quality of services
were adequate. To quantify the actual amount of time taken for laboratories
to turn around results on exhibits, we computed the time elapsed between
the receipt of exhibits by laboratories to the completion of analysis.2 3 To
evaluate the effectiveness of services used for intelligence purposes, we
interviewed officials of the DEA’s Office of Intelligence and the ONDCP.

      We obtained information about the usefulness and timeliness of
laboratory services on particular exhibits by selecting a statistical sample of
exhibits and surveying the customers using the questionnaire in Appendix II.
The sample consisted of 635 exhibits submitted to the regional and digital
laboratories by federal customers. We selected closed cases in order to
obtain information about how DEA laboratory evidence had withstood testing
through the legal process.2 4 This approach ensured that the sample would
include exhibits that had been tested through case prosecution and any
appeals and provided feedback from customers about whether cases had
been compromised due to problems with laboratory services. We selected
the sample of exhibits to include drug, latent print, and digital evidence. We
also sent additional questionnaires to nine state and local customers, all of
whom received laboratory services related to controlled substances only.

      Of the 635 questionnaires sent to federal customers, 572 went to
customers of the regional laboratories for drug and latent print analyses, and
63 went to customers of the DEL for digital exhibits. Of the 572 that went to
customers of drug and latent print services, 187 included latent print
services. We received responses for 486 exhibits, or about 76 percent of the
questionnaires sent to federal customers. Many of the 486 responses did
not answer every question on each questionnaire. We used the total
number of actual responses to each question to compute percentages of


       23
            All types of exhibits spent most of this time in vaults waiting to be analyzed.

       24
           The laboratories close a DEA case when all the drug exhibits associated with the
case have been destroyed and non-drug exhibits have been returned to the DEA field
offices. DEA field offices authorize the destruction of drug exhibits after all legal
proceedings, including appeals, have been completed and the evidence is no longer needed
for prosecution. The laboratories close non-DEA cases after all the exhibits associated with
each case have been returned to the submitting agency. Some exhibits in the sample from
non-DEA customers, therefore, were associated with open law enforcement cases.



                                             - 14 -
                               REDACTED VERSION


customers who responded a particular way. We received responses from
five (55 percent) of the nine state and local customers.

      We also interviewed DEA officials, agents, and other federal and local
customers and asked respondents to our questionnaire on exhibits to rate
the overall quality of services received from DEA laboratories on a scale from
1 to 5, with 1 being poor and 5 being excellent. Customers of the DEA
laboratories generally reported very high levels of satisfaction. All types of
customers we interviewed told us: 1) that they were satisfied with DEA
laboratory services, 2) the laboratories were responsive to requests for
expedited service and special needs, and 3) they never had any problems
with evidence being lost or compromised by the laboratories.2 5

       One significant measure we used to determine the quality and
effectiveness of laboratory services was whether any of the sampled exhibits
used in the prosecution of a case had been successfully challenged through
the legal process. Customers reported that no DEA laboratory analysis on
any sampled exhibit that played a role in the prosecution of a case had been
successfully challenged.

      We attributed the positive results of laboratory services on case
outcomes and customer satisfaction to the DEA’s overall management of the
laboratories. We also assessed selected management controls over the
quality of services by evaluating: 1) the professional accreditation status of
the laboratories, 2) internal reviews and follow up performed by the DEA,
and 3) laboratory compliance with selected quality management standards
such as proficiency testing and calibration of instruments.

      We found that the DEA established standards and procedures to
ensure the quality of services provided by the regional laboratories. The
laboratories were accredited by the ASCLD/LAB.2 6 This internationally
recognized accreditation provides assurance that the laboratories meet
various standards for forensic laboratory operations established by the
ASCLD/LAB. In addition, the DEA performed frequent reviews of individual
laboratories and followed up to ensure compliance with essential standards.
The DEA managed laboratory compliance with accreditation and other
quality standards effectively, including proficiency testing programs,

      25
         If the laboratories had lost evidence, the customers would have discovered the
problem when they requested the exhibits back from the laboratories for court purposes.

      26
            The laboratories are accredited by discipline for the analysis of controlled
substances, latent prints, and toolmarks. The ASCLD/LAB does not provide accreditation in
the discipline of digital evidence analysis.



                                         - 15 -
                            REDACTED VERSION


calibration and maintenance of scientific instruments, technical review of
analyses, and reliability of reagents.

Drug Services

       Outcomes. We asked customers if the laboratory services on each
exhibit had contributed to an investigation, prosecution, conviction,
sentence, or played some other role. We received 406 customer responses
to this question on exhibits submitted for drug analysis. All 406 indicated
that drug services contributed affirmatively to a case, or had analyzed or
confirmed a substance. The 5 responses from state and local customers all
indicated the laboratory services had contributed to an investigation,
prosecution, or conviction.

      A number of respons es indicated that the result of services had been
that no controlled substance was found. We counted these responses as
contributing to a case if the respondent also replied that the service had
been provided in time to be useful, because the information was available
for case development and might lead to alternate solutions.

      Several respondents to the questionnaire furnished examples of the
benefits of DEA laboratory services on drugs:

      •   One Senior Special Agent of the U.S. Customs Service in McAllen,
          TX wrote of an Organized Crime Drug Enforcement Task Force case,
          “The DEA lab has been a constant asset to [our] investigations. . . .
          I believe it was because all witnesses were present, in particular the
          DEA analyst, that led to a successful prosecution.”

      •   An FBI Special Agent in Tampa wrote, “The Southeast Lab did an
          outstanding job analyzing . . . 15 exhibits from a 3-year
          investigation . . . . A total of 13 defendants were convicted. The
          leader of the drug trafficking organization was sentenced to a life
          sentence in federal prison.”

      Customer Satisfaction. On the rating scale of 1 to 5, with 5 being
excellent and 1 being poor, customers rated laboratory services on exhibits
submitted for drug analysis with an average rating of 4.6. This was the
same average rating for all exhibit types found in the prior audit. During
interviews, DEA field division personnel and other customers told us they
were very satisfied with laboratory services for the analysis of controlled
substances, that the laboratories were responsive to special requests, and
that their working relationships with the laboratories were good to excellent.
An Assistant Special Agent in Charge for the FBI in Miami commended the


                                     - 16 -
                                 REDACTED VERSION


Southeast Laboratory for its drug services, and specifically the technical
assistance provided by the Southeast Laboratory during the anthrax
investigation in Miami.

      Timeliness. We used the same sample discussed above to ask
customers if laboratory services on each exhibit were performed in time to
be useful to them. Of 386 total responses to this question for drug exhibits,
381 (99 percent) responded that the drug services had been provided in
time to be useful. All of the state and local respondents also indicated that
laboratory services on all exhibits were provided in time to be useful. This
represented a slight improvement over the survey results of the prior audit
of 97 percent of the responses.

      Although the responses indicated the laboratory results had been
provided in time to be useful, four respondents complained about the
amount of time the specific analysis had taken or about timeliness in general
on exhibits for which both drug and latent print examinations had been
requested. (Our prior audit received similar comments indicating that the
results were reported in time to be useful but were slow to be reported.)
Customers stated they wanted shorter turnaround times.

       •    One Special Agent wrote, “The lab has provided good service to this
            office. However, the turn around has been taking too long, almost
            two months.”

       •    Another Special Agent noted, “The work done by the lab is very
            professional, and in cases I have needed them to testify they were
            always there. My only complaint is that it . . . is taking longer and
            longer to get results back.”

      DEA officials told us the laboratories have been actively working
toward a 1-month turnaround time from receipt in the laboratory to
completion of the analysis for drug exhibits, and the Laboratory System
Strategic Plan sets an ultimate target for all exhibits to be analyzed within
two weeks. We analyzed actual turnaround times for the universe of
analyzed drug exhibits used to select our sample for FY 2002.2 7 We
compared the date each exhibit was received in the laboratory to the date
the analysis information was entered into STRIDE.2 8 We used this to

       27
           All discussion of turnaround times in this report is based on the elapsed time from
the laboratories’ receipt of exhibits to the completion of analysis.

       28
          The DEA field offices had access to STRIDE to inquire about the results of drug
analyses. The analytical information became available to the field offices at the time the
analysis was entered into STRIDE. No DEA information system contained dates the hard


                                           - 17 -
                                   REDACTED VERSION


calculate the percentages of exhibits completed within certain timeframes
and the average number of days between receipt and completion of
analysis.2 9 The chart below reflects the results of this analysis for drug
exhibits.


                          Drug Analyses Completed by Month
                          All Regional Laboratories, FY 2002

                           > 120 Days
                               6%
                                                      < 31 Days
                        91-120 Days
                                                         56%
                            5%
                         61-90 Days
                            11%
                                31-60 Days
                                   22%


        Source: DEA, STRIDE. 3 0

      We found that more than half of the drug exhibits were analyzed
within one month of receipt in the laboratories, and an additional 22 percent
were analyzed by the end of the second month. Six percent of drug exhibits
were completed more than 4 months after receipt by the laboratories.

      Analysis completion times varied among the seven regional
laboratories, as shown in the chart below. Five of the seven regional
laboratories completed drug analysis on more than 70 percent of exhibits by
the end of the second month.



copy analytical reports were sent to customers. STRIDE automatically generated the date
the analysis was entered electronically, so we accepted this system-generated date as the
date the information became available to customers for the purpose of this analysis.

       29
            We tested the reliability of STRIDE data for use in our analyses of turnaround
times by comparing selected information in case files with STRIDE data elements for 218
analyzed exhibits. We found differences of between 0 and 3 percent in various data
elements we tested. The differences we found appeared unintentional and were likely the
result of data entry errors. We determined the data were adequately reliable for our use,
except for the specific limitations for latent print and digital data described in the report.

       30
          We isolated drug exhibits from latent print exhibits in the data extract by
separating out exhibits identified as “fingerprint evidence” in data elements labeled
“suspected drug” and “primary drug.”



                                             - 18 -
                                                               REDACTED VERSION


                                                       Drug Analyses Completed by Laboratory
                                                                     FY 2002

                            100%
                             90%
                             80%
     Percentage Completed




                             70%
                                                                                                                   > 120 Days
                             60%
                                                                                                                   90-120 Days
                             50%
                                                                                                                   61-90 Days
                             40%                                                                                   31-60 Days
                             30%                                                                                   < 31 Days
                             20%
                             10%
                                 0%
                                      Northeast     Mid      Southeast    North    South     Western   Southwest
                                                  Atlantic               Central   Central

                            Source: DEA, STRIDE.

       The high percentage of exhibits completed during the first month after
receipt in the Mid-Atlantic Laboratory is misleading because of different
procedures and the large number and nature of exhibits from the MPDC in
this laboratory. 3 1 The MPDC operates its own vault at the laboratory and its
exhibits are not recorded as having been received by DEA until DEA chemists
obtain them from the vault for analysis. Any waiting period between receipt
in the MPDC’s vault and removal by the DEA chemist is not reflected in the
figures for these exhibits. Also, MPDC exhibits are generally received in
quantities us ed by individuals, rather than bulk quantities that must be
sampled and tested multiple times.

       We computed the average number of days between receipt of exhibits
in the laboratories to the completion of analysis for the various exhibit types
for FY 2002, and found that the average number of days for analysis varied
significantly by exhibit type, shown in the chart below.3 2 This is discussed
further in the following sections on latent print and digital services.



                            31
           When these MPDC exhibits are re moved from the analysis of turnaround time for
drug services, the percentage completed by the end of the first month is 41 percent, and by
the end of the second month is 70 percent, reduced from 78 percent (with the MPDC
exhibits included), shown in the graph on page 18.

                            32
           The average number of days for drug analysis, excluding the MPDC exhibits, is
52, rather than 41 shown in the table on page 20. Differences between drug turnaround
times and latent print and digital turnaround times remain even when the figures are
adjusted to remove the effect of the MPDC exhibits.


                                                                            - 19 -
                                REDACTED VERSION


                              Average Number of Days for Analysis
                                          FY 2002

                   350
                   300                                                              331
                   250
                                                                      258
                   200
            Days




                   150
                   100
                                                       94
                    50                  72
                         41
                     0
                         Drug        Print Only   WL All Prints   SCL All Prints   Digital

          Sources by Type of Analysis: 1) Drug and Print Only - DEA, STRIDE; 2) WL All
          Prints - Western Laboratory fingerprint database; 3) SCL All Prints - South
          Central Laboratory fingerprint database; 4) Digital - Digital Evidence Laboratory
          case tracking database.

Latent Print Services

      Outcomes. As we did for drug services, we asked DEA laboratory
customers if the laboratory services on each exhibit analyzed for latent
prints had contributed to an investigation, identification, prosecution,
conviction, sentence, or played some other role. We received a total of 131
responses on latent print services. Of the 131 responses, 128 (98 percent)
indicated the analysis contributed to the case in some way. One Special
Agent’s comment indicated how useful latent print examinations can be in
DEA cases.

     •   “[O]verall, the DEA North Central Laboratory has provided this
         office with outstanding service. . . . Recently, the . . . lab was able
         to retrieve latent fingerprints in at least three different cases where
         the defendants have subsequently pled guilty. . . . In two of these
         investigations, the latent fingerprint retrieval and comparison most
         likely made the difference in a plea instead of a trial.”

      Eighteen of the 131 responses indicated that the results of services
had been that no latent prints usable for comparison were developed. We
counted these responses as contributing to the case if the respondent also
replied that the service had been provided in time to be useful, because the




                                             - 20 -
                                 REDACTED VERSION


information was available for case development and might lead to alternate
solutions.

      Another measure for analyzing the outcomes of latent print services is
the percentage of exhibits for which suspects are identified. To evaluate
how often latent print examinations resulted in the identification of suspects,
we analyzed data reported by regional laboratories to the DEA’s Office of
Forensic Sciences. The number of fingerprint exhibits analyzed that resulted
in the identification of suspects averaged 289 per year (4.4 percent) for the
3-year period.

      Based on our interviews with DEA staff, we found that the nature of
the materials submitted to the laboratories for fingerprint services is the
primary obstacle to developing latent prints. Materials subjected to
fingerprint examination frequent ly were plastic and paper wrappings with
well-worn and irregular surfaces that were handled by many people over a
long time. Although the DEA cannot control the nature or source of exhibits
submitted, it could improve other factors within its control to increase the
number of latent print identifications, such as increasing access to database
resources, increasing the specialization of supervisors, and improving
evidence handling procedures, as summarized below.

      Database Resources

            The DEA reported that all laboratories have direct access to the
      FBI’s Integrated Automated Fingerprint Identification System (IAFIS)
      for matching latent prints, and some laboratories have access to other
      print databases.3 3 The Southeast Laboratory had direct access to the
      Florida Automated Fingerprint Identification System (AFIS) through an
      agreement with the Florida Department of Law Enforcement; the
      Western Laboratory had access to the regional Western Identification
      Network. 3 4 Fingerprint specialists, however, reported they did not
      have direct access to all fingerprint databases that might be useful for
      matching fingerprints. The North Central, South Central, and Western
      Laboratories did not have direct access to all the state and local
      databases the fingerprint specialists might use. The specialists we
      interviewed indicated they occasionally traveled to other law

      33
            The FBI manages IAFIS to allow other agencies to search its automated print
database.

      34
          State law enforcement agencies maintain automated print databases of persons
arrested and unidentified prints from crime scenes for searching, which each state calls
AFIS. Not all of these prints would be found in the IAFIS database.



                                           - 21 -
                                 REDACTED VERSION


       enforcement agencies to use their databases, but direct access would
       improve their efficiency and the universe of suspects available for
       routine matching. The laboratories reported that DEA was working on
       establishing direct access to some of these databases.

       Specialization of Supervisors

              In the regional laboratories, supervisory chemists, who were
       qualified, trained, and experienced in the analysis of controlled
       substances, supervised both chemists and fingerprint specialists.
       Supervisory chemists responsible for the fingerprint programs in the
       regional laboratories told us they did not receive specialized training in
       latent print analysis. The DEA’s Laboratory System Strategic Plan
       recognizes the need for increased management specialization for
       supervisors with appropriate technical backgrounds to supervise
       fingerprint staff.

       Procedures for Handling Latent Print Exhibits

             Exhibits submitted for latent print analysis are handled by DEA
       agents in the field prior to being submitted for analysis, unless
       fingerprint specialists are asked to provide crime scene support. The
       DEA Agent’s Manual contains instructions for agents to use extreme
       caution in handling exhibits and to follow special packaging procedures
       to avoid obliteration of potential prints, but fingerprint specialists told
       us they sometimes find agents’ prints on exhibits in inappropriate
       circumstances.3 5 The guidelines for agents, therefore, appeared to be
       followed inconsistently.

              The DEA agents we interviewed told us that latent print evidence
       is frequently not as important to their cases as other types of
       evidence, such as surveillance photographs. Fingerprint specialists
       also told us that DEA agents receive limited training in handling
       exhibits to preserve latent print evidence and are not required to
       provide as detailed a description of how the evidence was obtained as
       FBI agents provide for latent print exhibits.3 6 Fingerprint specialists
       also indicated they would prefer to be at the scene of evidence


       35
          Some operational circumstances make this unavoidable, such as when an agent
handles a substance being bought, and then arrests a suspect.

       36
           The specificity attributed to FBI agents by DEA officials included a description such
as, “Exhibit was taken from the right front pocket of suspect name.”



                                            - 22 -
                            REDACTED VERSION


      seizures more frequently because the manner in which exhibits are
      handled at the scene is critical to preserve the evidence.

             Interviews with laboratory staff suggested that procedures for
      exhibits submitted for both drug and fingerprint examinations, which
      the DEA classifies as drug exhibits, may also have limited the success
      of fingerprint services. For example, the DEA allowed only chemists to
      withdraw drug exhibits from the vaults. Chemists normally obtained
      the exhibit, separated the drug from the packaging, placed the
      packaging in a separate evidence envelope (creating a second unit of
      the same exhibit), and performed the drug analysis before the
      fingerprint specialist saw the exhibit. The two separated evidence
      envelopes were returned to the vault, and the fingerprint specialists
      were then allowed to withdraw the fingerprint unit from the vault.
      Sometimes latent print analysis was performed on the packaging
      portion of the exhibit while the chemist had the exhibit out of the vault
      for analysis. The process normally required chemists to handle the
      exhibit prior to latent print analysis, increasing the chances that latent
      print residues may be inadvertently destroyed.

             Fingerprint specialists told us that chemists were not consistently
      successful in handling exhibits to protect latent prints and that they
      sometimes found chemists’ fingerprints on exhibits. They suggested
      this may be because chemists did not always notice that a request for
      latent print analysis had been made on a drug exhibit, or because
      individual chemists needed more training on preserving print residues.
      Fingerprint specialists also told us they sometimes worked with
      chemists prior to exhibits being separated to determine the best
      approach to separating or sharing the exhibit, and that they felt this
      helped protect print evidence.

       Customer Satisfaction. The average rating for exhibits submitted for
latent print analysis was 4.4, only slightly lower than the average of 4.6 for
drug services. While customer satisfaction was also high for latent print
services, prints suitable for comparison were frequently not developed or
identified, and the results were less timely. Responses from two Special
Agents (on four exhibits) specifically commented that the rating of 5 overall
for laboratory services on the sampled exhibits applied to the drug services,
but that they would give the latent print services on the same exhibits a
rating of 1.

     During interviews and in responses to our questionnaires, customers
expressed the following concerns about latent print services:



                                     - 23 -
                                 REDACTED VERSION


       •    One DEA Special Agent told us he did not submit non-drug exhibits
            for fingerprint analysis to the DEA laboratory if he considered the
            results critical to the case, but sent the exhibits to a local police
            laboratory.

       •    Another DEA Special Agent wrote, “I have never had a fingerprint
            found on anything I have submitted.”

       •    DEA personnel told us that agents frequently use local or state law
            enforcement latent print analysts for non-drug exhibits in part
            because it is easier than sending the exhibits to the DEA
            laboratories.3 7

      Timeliness. Of the 130 responses to the question about timeliness on
latent print services, 121 (93 percent) indicated the services had been
provided in time to be useful. Customers reported they had received the
drug analysis, but not the fingerprint results, for 3 exhibits submitted for
both drug and fingerprint analysis at the time they completed the
questionnaires.

       We were not able to compute actual turnaround times for all latent
print examinations for all laboratories because the DEA did not capture this
information in the STRIDE. The STRIDE information system was built to
record information on drugs and their analysis. The system was modified to
a limited degree to accommodate recording some information on other types
of exhibits as the role of the DEA laboratories expanded. However, the
system did not allow laboratories to record more than one date of analysis
per exhibit. Laboratories entered into STRIDE the dates and results of the
drug analyses for drug exhibits, but not the results of latent print analyses
on drug exhibits. Most, about two-thirds, of the exhibits analyzed for latent
prints by the DEA laboratories were exhibits submitted for drug analysis,
such as packaging in which the drugs were found. The DEA has begun a
project that will replace STRIDE with a system designed to better meet the
needs of the laboratories, with complete data for all types of exhibits and
examinations. The pilot operation for the replacement system is scheduled
for summer 2004.

      The only latent print analysis dates found in STRIDE were for non-drug
exhibits (i.e., those exhibits submitted for latent print analysis only), and not


       37
            The Office of Forensic Sciences has concerns about this practice in part because
not all state and local law enforcement laboratories are accredited or require analysts to
meet standards commensurate with DEA standards.



                                           - 24 -
                                REDACTED VERSION


all of these were being recorded in the STRIDE.3 8 About one-third of the
exhibits analyzed during FY 2002 for latent prints were non-drug exhibits.
For these exhibits, all the laboratories combined, except for the Southeast,
completed about 65 percent by the end of the second month after receipt in
the laboratory, compared with 78 percent of drug analyses completed within
the same period (or 70 percent without the MPDC exhibits).3 9 Sixteen
percent of the non-drug exhibits were completed more than 4 months after
receipt in the laboratories, compared with 6 percent for drug exhibits, (or 8
percent without the MPDC exhibits). These differences are not as significant
as the latent print completion times on drug and non-drug exhibits
combined, discussed below.

       Some regional laboratories maintained their own local databases of
latent print examinations to supplement the limited support provided by the
STRIDE. Only two of the regional laboratories we visited maintained
sufficient data to evaluate turnaround time from receipt of an exhibit in the
laboratory to completion of latent print analyses for fiscal year 2002. We
used information from databases maintained by the South Central and
Western Laboratories to estimate the time customers had to wait for results.
Although we were unable to verify the reliability of this information, we used
the information because we believed it was important to determine if there
were significant differences in turnaround times for different types of
exhibits analyzed by the laboratories. The chart below shows the results of
this analysis for latent print examinations.




       38
           We found that the Southeast Laboratory did not record non-drug exhibits in
STRIDE, so latent print analyses on non-drug exhibits for the Southeast Laboratory are not
included in the figures discussed in the paragraph. The Southeast Laboratory did this to
prevent the longer analysis times for latent print services from affecting the overall
turnaround times being calculated by STRIDE in standard, system-generated reports. (We
also found that the South Central Laboratory recorded non-drug exhibits in STRIDE as “for
storage only” to exclude the analysis dates from being counted in the overall turnaround
times calculated by the STRIDE, though this practice did not affect our analysis here.)

       39
          The Mid-Atlantic Laboratory is also not represented in the data analysis because it
began performing latent print examinations in FY 2003.


                                           - 25 -
                               REDACTED VERSION


                       Latent Print Analyses Completed by Month
                         South Central & Western Laboratories
                                     Fiscal Year 2002


                                                  < 31 Days
                                                     13%

                     > 120 Days                         31-60 Days
                        47%                                15%

                                                       61-90 Days
                                                          13%
                                              91-120 Days
                                                  12%

   Source: South Central and Western Laboratories latent print databases.


      For latent print examinations performed during fiscal year 2002, the
two laboratories (combined) completed 13 percent in the first month and
another 15 percent in the second month, for an accumulated total of 28
percent within 2 months, compared with 78 percent (or 70 percent without
the MPDC exhibits) for drug exhibits. The percentage of latent print exhibits
completed more than 4 months after receipt was 47 percent, compared with
only 6 percent (or 8 percent without the MPDC exhibits) for drug exhibits.
Additionally, the average number of days from receipt to completion of
analysis was 94 and 258 for the Western and South Central Laboratories,
respectively, both of which were far longer than the average of 41 days (or
52 days without the MPDC exhibits) for drug exhibits.4 0

      The chart below shows the differences between the two laboratories.
While the turnaround times varied between these two laboratories, both
performed less quickly on latent print services than any laboratories
performed on drug services. (Compare this with the chart on page 19.)




     40
          See page 19 and footnote 31 for discussion of the MPDC exhibits.


                                         - 26 -
                                  REDACTED VERSION


                         Latent Print Analyses Completed by Laboratory
                                            FY 2002


                           70%
                           60%
                           50%
                           40%
                           30%
                           20%
                            10%
                             0%
                                  <3
                                    1 D 31-6       6
                                       ay   0 D 1-9        91          >
                                         s     ay    0D      -12
                                                 s     ay       0 D 120
                                                         s         ay    Da
                                                                     s     ys



                                   South Central Lab        Western Lab

            Source: South Central and Western Laboratories latent print databases.


      According to DEA staff, the turnaround times for latent print
examinations were significantly longer than turnaround times for drug
exhibits because DEA laboratories do not have sufficient resources to handle
the latent print workload. The DEA had 209 positions allocated for forensic
chemists in regional laboratories, but only 23 positions allocated for
fingerprint specialists for FY 2003.4 1 The timeliness responses from
customers and the data analysis of turnaround times also strongly suggest
that the allocated fingerprint positions do not support turnaround times
comparable to those for drug services. Also, since some DEA field offices
submit non-drug exhibits for latent print examinations to non-DEA
laboratories, the demand for latent print services is actually higher than the
data show.

      DEA laboratory staff also indicated that DEA agents frequently request
that certain exhibits be examined immediately due to exigencies, such as an
upcoming court case. Exhibits were not handled on a first-in first-out basis,
causing delays in handling exhibits of lower priority. All delays in examining
exhibits for latent prints may also negatively affect the outcome of analysis
because print residues evaporate over time, so the longer it takes the exhibit
to get to the specialist for analysis, the less likely it is that any prints will be
found.



       41
           The numbers do not include chemists at the STRL or supervisors for any
laboratories because this analysis focused on staff available to analyze domestic exhibits for
customers.


                                                - 27 -
                                 REDACTED VERSION


Digital Services

      Outcomes. Of the 42 customer responses on digital exhibits to the
question about how laboratory services had contributed to a case, 35 (83
percent) reported the results as having contributed to the case. The
remaining seven digital exhibits had not been analyzed in time to be useful.4 2

      Customer Satisfaction. Responses we received rating the services for
exhibits submitted for digital analysis shared the average rating of 4.6 with
drug services.

            •   A DEA Group Supervisor in Pittsburgh indicated that the DEL’s
                analysis of data on the hard drive had been “critical for financial
                record information.”

      Two of the digital exhibits in our sample that had not been analyzed
belonged to a case in which the analysis of more critical digital exhibits
contributed significantly to investigations in more than four DEA offices. The
Special Agent responded,

            •   “Our office requested that [the Digital Evidence Laboratory]
                review the [17] hard drives first. . . . [The DEL’s] assistance in
                obtaining the mirror imaged hard drives and their review . . .
                made it possible to coordinate internet cases in various
                jurisdictions. Four of the five defendants pled out . . ., due in
                part to the overwhelming evidence.”

       Timeliness. Of the 38 customer responses on digital exhibits, only 31
(82 percent) reported that digital services were provided in time to be
useful. One Special Agent commented, “The exhibit . . . was in the custody
of the . . . lab for thirteen months. . . . None of the computers, zip drives,
or floppy disks were ever analyzed.”

      One DEA field office reported that the plea agreement in one case
might have resulted in more serious charges if the digital services had been
provided before the agreement was made. The Special Agent reported that
the analysis took more than 1 year, by which time the defendant had pled to

       42
           The sample of digital exhibits included exhibits that had and had not been
analyzed, because the DEA’s STRIDE, from which we selected the sample, contained data
on the laboratory’s receipt of exhibits but did not contain analysis data for digital exhibits.
The lower percentage of analyses that contributed to cases for digital exhibits, therefore, is
a function of the STRIDE not containing analysis data on digital exhibits. Had STRIDE only
selected those digital exhibits that had been analyzed, the seven exhibits that had not been
analyzed would not have been in the sample.


                                            - 28 -
                                 REDACTED VERSION


a lesser charge. The Agent added, however, that the laboratory does a good
job overall.

       We analyzed the actual time between the receipt of digital exhibits and
the completion of analysis for each case analyzed during fiscal year 2002 at
the DEL. For this purpose, we obtained a data extract of a tracking database
used by the DEL because the DEA does not record dates of analysis for
digital exhibits in STRIDE. The DEL tracked this information by case, rather
than by exhibit. The results are shown below.


                                 Digital Cases Analyzed by Month
                                             FY 2002



                                                   < 31 Days
                                                      20%
                                                         31-60 Days
                                                             9%
                    > 120 Days                           61-90 Days
                       56%                                   7%
                                                    91-120 Days
                                                        8%


            Source: Digital Evidence Laboratory case tracking database.


       The results indicate that digital services were, like the latent print
services, significantly less timely than drug services. The timeliness
responses from customers and data analysis of turnaround times strongly
suggest that the allocated digital evidence positions did not support
turnaround times comparable to those for drug services. The longer
turnaround times for digital services may have resulted from the numbers of
analysts employed to perform this type of analysis. The DEA had 6 total
positions, including supervisors, allocated for digital evidence analysts for FY
2003. The DEA added contract staff to support digital exhibit examinations
during fiscal year 2003, but these were not permanent positions. The DEL
Director reported to us in October 2003 that the oldest exhibits currently in
the vault waiting to be analyzed were received in April 2003, so nothing over
six months old was waiting for analysis. Compared with the average
number of days for analysis for 2002 (331), the timeliness appeared to have
improved since the contracted personnel were obtained.




                                          - 29 -
                                 REDACTED VERSION



Intelligence Services

       To assess customer satisfaction with the STRL services that support
intelligence needs, we interviewed the intelligence customers who receive
information directly from the laboratory. The STRL performs research,
analyzes controlled substances for intelligence use, analyzes controlled
substances from international sources, and analyzes toolmarks and logos on
solid dosage units and drug packaging. Work performed for intelligence
purposes generates strategic intelligence through the analysis of drug
samples obtained in the U.S. and foreign countries. The STRL’s drug
signature programs analyze samples to determine processing methods,
geographic origins, and manufacturers for heroin, cocaine and
methamphetamine. The laboratory also analyzes toolmarks and logos on
tablets, capsules, LSD blotter paper, and cocaine, heroin, and steroid
packaging to determine manufacturing sources, which is called the Source
Determination Program. 4 3

      We interviewed officials of the DEA Office of Intelligence and the
ONDCP to find out how satisfied they were with information and other
services provided by the STRL. Both the Office of Intelligence and the
ONDCP reported there is no other source for this type of information and
they value the work of the STRL highly. Both offices used the information to
develop strategies and focus resources, and indicated they held regular
meetings with the STRL to discuss trends and developments, and tried to
address needs as they arise. Both customers indicated the Office of Forensic
Sciences and the STRL were helpful and accommodating.




       43
            Toolmark analysis is the analysis of tablets for machine and other tool markings,
similar to ballistics analysis. The tracking of “designer” or “proprietary” logos on packaging
helps identify sources of substances.


                                            - 30 -
                            REDACTED VERSION



Conclusion

      According to laboratory customers, the DEA’s laboratory services have
contributed effectively to appropriate case outcomes and intelligence needs.
The DEA has managed the quality of laboratory services to support the
investigation and prosecution of drug crimes, and customers consistently
reported high levels of satisfaction with services. However, turnaround
times for latent print and digital services were significantly longer than drug
services and customers would like the timeliness of services improved.
Longer analysis times for latent print and computer forensic examinations
appear to result from resource limitations.

      Latent prints suitable for comparison were frequently not developed
largely because of the nature of the materials being examined. However,
other factors are more controllable, such as the expertise of latent print
supervisors, databases used for matching prints, the length of time it takes
to begin a latent print analysis, and procedures that allow many peopl e to
handle the exhibits before they are available to the fingerprint specialists.
Such factors may also be obstacles to developing and identifying usable
prints.

      We believe the DEA should strengthen the laboratory fingerprint
program to maximize the results of examinations, and improve the
timeliness of latent print and digital evidence services to a level comparable
to laboratory performance on drug exhibits.

Recommendations

We recommend the DEA:

1. Consider allocating DEA resources for additional fingerprint and digital
   evidence positions that would support turnaround times comparable to
   those for drug services.

2. Ensure that supervisors of fingerprint specialists are qualified and
   experienced in the analysis of latent fingerprints.

3. Provide direct access to additional local, state, and regional latent print
   databases for matching latent prints.

4. Provide detailed instructions and training for agents to ensure they
   properly handle and describe exhibits critical for developing latent prints.



                                     - 31 -
                            REDACTED VERSION


5. Increase the use of DEA fingerprint specialists at appropriate crime
   scenes.

6. Ensure that potential latent print residues are protected when drug
   exhibits that will also be analyzed for latent prints are opened and
   separated. This may involve additional training for chemists and
   increasing the use of joint decision-making or handling by chemists and
   fingerprint specialists when exhibits identified as high priority for print
   analysis are opened and separated.

7. Ensure that laboratories use standardized procedures for recording
   information in data systems to ensure that all types of exhibits are
   tracked appropriately, and that the new information system will clearly
   track analysis data and turnaround times for all types of exhibits and
   analyses.




                                     - 32 -
                           REDACTED VERSION



FINDING 2: MANAGEMENT CONTROLS OVER EVIDENCE AND OTHER
CONTROLLED SUBSTANCES


          Our testing of inventories and case files at the regional
      laboratories indicated that controls over evidence and other
      controlled substances were generally adequate. We identified
      minor instances of non-compliance with DEA control standards,
      but determined these did not constitute material control
      weaknesses. DEA has implemented adequate procedures to
      control and account for the receipt, storage, transfer, and
      disposition of exhibits, and the laboratories complied
      substantially with the requirements. However, we did note that
      more than 10 percent of exhibits we tested were out of
      compliance with the DEA standard to destroy exhibits within 90
      days after laboratories received authorization for the destruction.

      Prior to our audit, the DEA’s system of internal reviews had
      identified and corrected procedural weaknesses that had caused
      a small number of evidence discrepancies before 2002, including
      the unauthorized destruction of exhibits. The DEA also
      recognized that the combination of automated information
      systems and manual records used to account for evidence was
      inefficient and duplicative. The DEA’s Office of Forensic Sciences
      entered into a contract in June 2003 to replace its information
      management systems with one system that will include radio
      frequency identification tags and scanners to track the
      movement of exhibits that should simplify and improve the
      efficiency of managing evidence. The new system is scheduled
      to be pilot tested during summer 2004.

Introduction

      The DEA’s laboratories receive, store, transfer, and eventually dispose
of all exhibits that are submitted for forensic analysis.4 4 The laboratories
also maintain [DELETED] custody of all drug evidence seized by DEA field
offices once it has been submitted for analysis, with the exception of bulk



      44
           [DELETED]




                                    - 33 -
                                REDACTED VERSION


marijuana and bulk ephedrine.4 5 The laboratories maintain DEA drug
exhibits until they are destroyed, and return exhibits submitted by
customers other than DEA and non-drug DEA exhibits to DEA field offices
following analysis.

      The laboratories maintain other controlled substances for use as
reference standards, training materials, proficiency testing samples, and
reverse undercover drugs for sales and “flashes” by agents. The
laboratories are also responsible for maintaining accountability for all
evidence and other controlled substances through disposition. Accountability
is supported by a combination of automated and manual information
systems and records.

Information Systems

      Two automated information systems are used to record information
about evidence in all regional laboratories. The Laboratory Evidence
Management System (LEMS) is a DEA database designed to track the
movement of exhibits within laboratories, when they are transferred out to
agents or defense attorneys for court purposes, and when they are
destroyed. The LEMS creates and reads bar codes associated with exhibits,
and produces a variety of reports to support destruction of exhibits and
other laboratory activities. The LEMS was intended to replace manual
recording on DEA-307 index cards, which serves the same functions.4 6
However, the laboratories continue to maintain DEA-307 cards to use for
back up if the LEMS goes down, and because LEMS did not always function
as intended when it was new.4 7

      The DEA also entered inventory and destruction information about
exhibits into the System to Retrieve Information on Drug Evidence (STRIDE)
and various manual logs and other records to help track evidence and
actions. STRIDE was designed and enhanced to record inventory and
analysis information on exhibits.4 8 STRIDE pre-dated LEMS and included

       45
           The field offices prepare samples of bulk marijuana and ephedrine seizures to
send to laboratories for testing, and maintain custody of the bulk quantities.

       46
         The DEA-307, Evidence Accountability Record, is a 5” by 8” index card used to
record manually the movement of exhibits that is also recorded in LEMS electronically.

       47
          The LEMS in the Western Laboratory was not functioning fully for several days
during our 2-week visit.

       48
         Technically, the current system is STRIDE II, the enhanced version of the original
STRIDE. There is no automated interface between the LEMS and STRIDE.



                                          - 34 -
                               REDACTED VERSION


some functionality for tracking exhibits through laboratory procedures. As
DEA laboratories expanded into the additional disciplines of fingerprint and
digital examinations, the DEA found ways to use STRIDE to record some
data about these exhibits. STRIDE currently contains complete data only for
drug analyses on drug exhibits. It does not contain analysis information
related to fingerprint examinations on drug exhibits or digital evidence
exhibits.

       STRIDE serves as the central repository of information about exhibits,
and LEMS is used to track exhibits in and out of individual vaults.
Laboratory staff members perform duplicate and inefficient data entry to
keep the various systems of records updated. In addition to being
inefficient, entering the same data more than once increases the risk of data
entry errors.

       The DEA has initiated a contract to integrate its automated and
manual information systems and improve functional support to its
laboratories. As part of this integration project, the DEA plans to implement
radio frequency tags and scanners that should simplify accountability over
exhibits at the laboratories. This should ensure that the location of any
exhibit in a laboratory at any time can be determined, and that no exhibit is
lost or destroyed inadvertently. The system should also make accountability
far more efficient than was the case during our audit.

Control Procedures

      Our prior audit found that most controls over evidence and other
controlled substances were satisfactory, but that certain controls could be
improved. The results of our testing at the regional laboratories indicated
that most controls were adequate and allowed only minor instances of non-
compliance. We determined these instances did not represent material
control weaknesses.

      Receipt of Evidence Exhibits. [DELETED]

                                 Evidence technicians (ETs) checked to make
sure packages were properly sealed, and compared information on package
labels with information on DEA-7 forms that were required to accompany
exhibits.4 9 The ETs also compared information on shipping labels and
registered receipt labels prior to accepting packages from [DELETED].
      49
           A DEA-7 form is the Report of Drug Property Collected, Purchased, or Seized.
State and local customers were not required to use DEA-7’s when submitting evidence for
analysis, but provided information on exhibits in correspondence.



                                         - 35 -
                           REDACTED VERSION


[DELETED] If information was consistent and packages were properly
sealed, exhibits were accepted and signed for by the laboratories. The ETs
entered receipt information into LEMS, which then printed a label for the
exhibit and a DEA-307 index card. The ETs then stored the exhibits in
appropriate locations in evidence vaults. Much of the same information
about the receipt of each exhibit was subsequently entered into the STRIDE,
usually by the scientific intelligence technician, with additional information
about the suspected drug.

       If the paperwork accompanying exhibits contained discrepancies, the
laboratories generally tried to obtain corrected paperwork before returning
exhibits to the submitting office. If packages were not properly sealed,
laboratories returned the package to the submitting office. We observed
procedures and reviewed receipt documentation. All but one of the
laboratories we visited maintained a log of exhibits that had been rejected
and returned. At the time of our visit, the Southeast Laboratory did not
maintain a log of rejected exhibits that had been returned to the submitting
office. The DEA’s procedures did not require such a log, and the Southeast
Laboratory was maintaining records of the registered receipt or comparable
tracking numbers on individual forms.

      Control Documentation in Case Files. We verified control actions
documented in case files for a judgmental sample of 218 exhibits in the four
regional laboratories we visited, and compared data between the case files
and STRIDE. We looked for properly completed, signed, and dated DEA
forms reflecting information on exhibit submittal, analysis, and eventual
destruction, return to the submitting agency, or retention for official use.
We found that laboratories complied with documentation requirements.

      Storage and Inventories. The regional laboratories stored evidence
exhibits [DELETED]. The laboratories controlled access to vaults by using
electronic card readers and deadbolt locks. We observed security
procedures at the laboratories we visited to test whether access to the vaults
was controlled. Laboratory chemists and fingerprint specialists stored
exhibits they had signed out for analysis in “in-process vaults” in each
laboratory, which had separate security from the main vaults. Each analyst
had a lock-box and locked cage to secure the exhibits he or she signed out,
and only analysts had access to the in-process vaults.

      The DEA required each laboratory to conduct complete physical
inventories of evidence annually and within 30 days of the departure or
reassignment of staff members with access to the evidence vaults. We




                                    - 36 -
                                 REDACTED VERSION


reviewed inventory documentation and determined that inventories were
being performed as required.5 0

       We judgmentally sampled 370 exhibits that were recorded in LEMS as
being located in the vaults at the four regional laboratories we visited. We
confirmed the vault location recorded in LEMS for each exhibit by observing
laboratory employees retrieve the exhibit from the labeled storage location.
We confirmed the accuracy of information on exhibit labels by comparing the
identifying information on all labels on the exhibits with LEMS information.5 1
The laboratories were able to locate each exhibit we sampled, or provided
documentation to show its transfer to another location, and we verified the
identifying information between LEMS, the evidence label, and the LEMS
label.

      Our 1995 audit had found that post-analysis weights had not been
recorded on some exhibit labels, as was required by the DEA, and
recommended that the DEA ensure that laboratory personnel record the
gross weight of exhibits after analysis on exhibit labels. Using the inventory
sample of 370 exhibits, we observed if the analyst had recorded a post-
analysis weight for the exhibit on the label.5 2 We found general compliance
with this standard. A total of 7 (about 2 percent) of 370 exhibits we tested
were out of compliance.5 3

      Controls Over Exhibits Out of the Vault. Exhibits were transferred
from the vaults internally within laboratories to chemists and fingerprint
specialists for analysis, and externally to Special Agents for use in court

       50
           We identified one instance in which a staff member had resigned in April 2001, a
different employee had been reassigned in May, and the inventory had been performed in
June 2001, so the 30-day standard had not been met for the first employee departure. The
Laboratory Director explained that he had known that the second employee would be
departing shortly after the first, and decided to wait until the second employee had left
because the inventory process requires the commitment of many resources. He also stated
the inventory had not identified any discrepancies.

       51
          Labels on the exhibits included evidence labels and LEMS labels. The data
elements we compared on each exhibit were the case number, exhibit number, laboratory
number, unit number, and type of exhibit (drug/fingerprint).

       52
           We determined whether the exhibit had been analyzed by looking for the second
seal by a laboratory analyst. Laboratories do not record post-analysis weights for non-drug
exhibits, so we did not include these in our test.

       53
            We did not confine our inventory testing to exhibits that had been analyzed within
any specific time period; some of these were old exhibits that had been analyzed before the
prior audit.



                                           - 37 -
                                REDACTED VERSION


proceedings. All transfers were recorded in LEMS and on DEA-307 cards,
and the external transfers to Agents were additionally recorded on DEA-12
forms and in STRIDE.5 4

      The DEA used an established standard for analysts to return exhibits
to the main evidence vaults within 30 days of removal. In the prior audit
the OIG recommended that the DEA reduce the time that analysts held
exhibits out of the vault following the completion of analysis. The DEA
responded by establishing a standard requiring analysts to return exhibits
within five working days after completion of the analysis. We tested 631
exhibits that were out of the vaults during our site visits at the four regional
laboratories we visited to determine whether they were held out for more
than 30 days overall and more than 5 days after completion of analysis. Of
the 631 exhibits tested, 10 exhibits (1.6 percent) had been out of vaults to
analysts more than 5 working days after analysis. Of the same 631 exhibits,
4 (less than 1 percent) had been out for more than 30 days altogether.

       Laboratories transfer exhibits out to Special Agents for court
proceedings, and the DEA required laboratories to follow up with DEA Field
Divisions quarterly to ascertain the status of exhibits that have been “out to
court” for more than 20 days. We performed limited testing on exhibits “out
to court” more than 20 days at the time of our site visits. We reviewed
documentation maintained by the laboratories and selected all of the
exhibits currently out to court to the DEA Field Divisions in the cities we
visited for follow up at the Field Divisions. We found that the laboratories
and Field Divisions were able to account for all exhibits currently out to
court.

       Other Controlled Substances. Laboratories were maintaining
inventories, or stockpiles, of other controlled substances for use as reference
standards, training materials, proficiency testing samples, and reverse
undercover drugs for sales and “flashes” by agents. We interviewed
laboratory personnel, reviewed logs and other documentation maintained by
the laboratories to account for these stockpiles, and verified entire
inventories or tested them judgmentally. We found that the laboratories
were able to account for the materials in these stockpiles. Although we
identified problems with accountability and missing records for the training
stockpile for the period prior to January 2001 at the South Central




      54
           A DEA-12 form is the Receipt for Cash or Other Items that is used to document
the transfer of exhibits.



                                          - 38 -
                                  REDACTED VERSION


laboratory, the Office of Forensic Sciences had issued specific procedures in
January 2001 to improve accountability for training materials.5 5

      Disposition. Laboratories dispose of exhibits by returning them to
submitting agencies, destroying them, or retaining them for official use.
Non-drug exhibits and exhibits submitted by agencies other than the DEA
are returned to the submitting agency after the forensic analysis has been
completed. Laboratories are allowed to destroy exhibits after receiving an
authorization to do so from the appropriate field office.5 6 Laboratories may
choose to retain for official use certain exhibits that have been authorized for
destruction. “Official use” includes training, proficiency testing, and reverse
undercover operations. [DELETED]

           LEMS provided reports to help control the process and identify
exhibits that had been selected for destruction, but had not been authorized
for destruction.

      We reviewed records of destruction events performed by regional
laboratories to determine if discrepancies identified in LEMS reports in
destruction batches had been adequately reconciled. We found that
laboratories did not maintain complete records of the resolution of
discrepancies in the destruction batches prior to February 2002, and some
did not maintain any control record of what had been destroyed other than
the automated information in LEMS, which could be modified after the fact.
The Office of Forensic Sciences identified these weaknesses and issued
revised draft procedures in February 2002 for destruction that require
laboratories to sign and maintain control reports of the destruction batches.
Evidence destruction control and documentation appeared adequate since
then. The results of weaknesses in destruction procedures prior to February
2002 included evidence being destroyed without authorization, missing
evidence being presumed destroyed but lacking any record of the presumed
destruction, and evidence that should have been destroyed being found in
vaults. The DEA had required corrective actions to be taken, and followed
up with laboratories to obtain reports that the actions had, in fact, been
completed.




       55
          The Laboratory Director told us that the older records had apparently been
destroyed when the duty was transferred to another employee.

       56
           Field offices authorize destruction of specific exhibits on the form DEA-48,
Disposition of Drug Evidence. The DEA-48 also contains information about the actual
disposition, date, and signatures attesting to the disposition. The field offices are required
to obtain approval for the destruction from prosecutors.


                                            - 39 -
                                REDACTED VERSION


       The DEA required laboratories to destroy exhibits within 90 days of
receiving authorization from the field. We also tested the sample of 218
exhibits in case files to determine if the exhibits were destroyed timely. A
total of 25 exhibits (11.5 percent) in 218 case files we reviewed were
destroyed more than 90 days after the laboratories’ receipt of authorization.
All but three of these (1 percent) were destroyed within 120 days.

DEA Oversight

       We reviewed internal reports and interviewed officials of the DEA’s
laboratory system, Office of Professional Responsibility, and the OIG’s
Investigation Division to identify problems with evidence accountability not
indicated in our audit tests. The DEA reports identified discrepancies and
weaknesses the DEA took action to correct. These problems included
identifying evidence missing from the vault without documentation, finding
evidence in vaults for which destruction documents had been executed,
identifying data inconsistencies between duplicative systems of records, and
identifying exhibits with missing or incorrect labels. The DEA corrected the
identified problems and procedural weaknesses prior to the start of our
audit.

      The DEA requires laboratories to report unresolved inventory
discrepancies, or missing evidence, when discovered. The Office of
Professional Responsibility told us that most missing evidence cases related
to evidence lost in transit or before it reached the laboratories, and that one
criminal case had been brought. However, the DEA’s Office of Professional
Responsibility and laboratories also concluded that inadvertent destruction
had caused a few cases of missing evidence during the audit period. We
reviewed documentation associated with three such instances of inadvertent
destruction.

            •   A physical inventory conducted at one laboratory in June 2002
                identified one threshold unit of evidence missing.5 7 The LEMS
                record indicated the unit (of methamphetamine) had been
                destroyed in September 2001, but the official DEA-48 form
                indicated the unit had been retained as appropriate. This

       57
           Laboratories normally maintain only portions of large “bulk” exhibits after
analysis. The amounts maintained are amounts needed to support maximum sentences,
called threshold amounts. The portions of bulk seizures that exceed the threshold amounts
are destroyed, unless the prosecutor specifically requires more to be maintained. “Units” of
an exhibit are separate packages, such as boxes, that belong to the same exhibit.
Individual units of bulk exhibits are marked as threshold units for the laboratory to
maintain.



                                          - 40 -
                               REDACTED VERSION


               suggests inadequate control over the selection of exhibits for
               destruction and the recording of information in the LEMS and on
               the official DEA-48 form.

           •   Four exhibits (consisting of five units) of cocaine and heroin were
               identified as missing at one laboratory when a Special Agent
               requested them for court use. A LEMS listing of discrepancies
               between exhibits authorized and selected for destruction (for a
               September 2001 destruction) listed six units in the case as not
               authorized for destruction. This should have alerted laboratory
               staff to return all six units to inventory, but only one unit
               appeared to have been returned. The unauthorized destruction
               appeared to have resulted from inadequate control over the
               selection of exhibits for destruction and inadequate reconciliation
               of discrepancies before destruction.

           •   An inventory conducted in December 2001 identified two missing
               exhibits of cocaine at one laboratory. Laboratory officials
               believed that the exhibits were destroyed inadvertently during
               destructions in either August or November 2001. Laboratory
               officials, however, could not document the destruction or
               determine exactly when the loss occurred because the exhibits
               were not recorded in the LEMS as destroyed and the laboratory
               had kept no records identifying or reconciling discrepancies for
               either event.

       In our judgment, inadequate controls over the selection and recording
of exhibits had been applied during the particular destruction events, each of
which took place before the DEA issued revised destruction procedures in
February 2002. The DEA now requires laboratory officials to sign and
maintain control reports of destructions demonstrating the successful
resolution of discrepancies. The Office of Forensic Sciences also added
critical destruction procedures to the checklist it uses to perform
management visits. Our audit testing did not identify any cases of missing
evidence, and the DEA’s revised procedures for destruction appeared to
provide adequate control after they were issued.

      In our judgment, the DEA significantly improved its oversight over
evidence by the inclusion of independent staff in performing physical
inventories of the vaults.5 8 In 2001, the Office of Forensic Sciences began

      58
          A Department of Justice audit report released in 1988 found that the DEA
performed annual evidence inventories with staff members who lacked independence
because they also had access to the exhibits and maintained the detailed records and
summary accounts of what was held. We recommended that the annual inventories be


                                         - 41 -
                                REDACTED VERSION


participating in complete inventories of evidence at each laboratory and
issuing reports of the results.5 9 Staff members from DEA headquarters and
other laboratories joined laboratory staff to reconcile all evidence inventory
items in the laboratory with all inventory documentation. The DEA identified
a number of problems with evidence accountability, some of which were not
found or reported as a result of inventories that had been performed
previously by laboratory staff.

Conclusion

      The DEA’s laboratories have generally maintained adequate
accountability and control over evidence and other controlled substances,
and have corrected weaknesses identified through DEA internal reviews. In
addition, the DEA’s plan to integrate the various systems of records should
provide improved efficiency and automated control over the movement of
exhibits.

       The DEA had established procedures for laboratories to control and
account for the receipt, storage, transfer, and disposition of exhibits, and the
laboratories complied substantially with these requirements. The DEA also
provided oversight and ensured that corrective actions were taken when
warranted, and required laboratories to report unresolved instances of
missing evidence for follow-up action. More than 10 percent of sampled
exhibits were out of compliance with the DEA standard to destroy exhibits
within 90 days after laboratories received authorization for the destruction.
This finding suggests that destruction events should be scheduled more
often than every 90 days to help ensure that all exhibits are destroyed
timely.

Recommendation

We recommend the DEA:

8. Ensure that exhibits are destroyed within the 90-day standard.




performed by persons independent of evidence c ustodial functions. At that time, DEA did
not implement the recommendation because of concerns over the accountable staff losing
control over the exhibits during inventories.

      59
           Prior to 2001, each laboratory performed its own annual inventory.


                                          - 42 -
                                REDACTED VERSION




FINDING 3: FACILITIES


             Our 1995 audit found that several of DEA’s laboratories
       were housed in aging facilities that needed to be replaced. Since
       1995, the DEA has replaced the Special Testing and Research,
       Mid-Atlantic, South Central, and Southwest Laboratories with
       newly constructed facilities. In this follow-up audit we found
       that the Southeast Laboratory, which had not been replaced, has
       ventilation problems that pose health risks to employees and
       make employee drug testing ineffective. The Western
       Laboratory also has a history of ventilation problems that
       prevents effective employee drug testing. [DELETED]




Introduction

      In the 1995 audit we found that the laboratories were generally
housed in aging facilities, and that five of the facilities needed to be
replaced.6 0 Specifically, the audit found overcrowding, inadequate
ventilation, insufficient storage space for exhibits, and inadequate fume hood
space. At the time of the prior audit, the DEA had plans to replace five
laboratories with new facilities that were to conform to current standards for
laboratory design, safety, security, and health. The DEA planned to obtain
congressional approval to fund a 5-year capital improvement project to
construct four new regional laboratories and a new STRL.6 1

      The 1995 audit recommended that the DEA Administrator ensure that
reasonable alternatives for the number, location, and size of future
laboratories be adequately considered prior to construction of the planned
five new regional laboratories in case the DEA could not obtain funding to
replace the laboratories. The DEA obtained funding for the construction
project, and built new facilities for four of the five laboratories. The
Southeast Laboratory has not been replaced.

       60
          OIG Audit Report 95-18, Drug Enforcement Administration’s Laboratory
Operations, issued in May 1995.

       61
          During the prior audit, the North Central Laboratory in Chicago relocated to newly
modified space that incorporated the new standards.



                                          - 43 -
                                 REDACTED VERSION



      As part of this audit, we followed up to determine if the DEA had
completed its 5-year project to replace the five laboratories, and to assess
conditions at the laboratories we visited. We visited the STRL, Southeast,
North Central, South Central, and Western Laboratories.

Laboratory Replacement

      We found that the DEA had replaced four of the five facilities planned
for replacement in the 5-year program at a combined build-out cost of about
$20.5 million: the STRL, Mid-Atlantic, South Central, and Southwest
Laboratories. The Southeast Laboratory in Miami had not yet been replaced
because the U.S. Department of Defense (DOD) prevented the planned
construction project.6 2

                           Laboratories Planned for Replacement
       Laboratory              Location     Replaced             Date
    STRL/DEL               Metro D.C.       Yes        May 2002/August 2000
    Mid-Atlantic           Metro D.C.       Yes        June 2002
    Southeast              Miami            No         Not yet replaced
    South Central          Dallas           Yes        January 2002
    Southwest              San Diego        Yes        January 2003
    Source: DEA, Office of Forensic Sciences.

      The DEA had planned for a new facility to be completed in Miami by
January 2002. In March 2000, the GSA entered into a contract for the new
laboratory to be constructed on property that bordered land leased by the
DOD. In June 2000, the DOD began condemnation proceedings to prevent
the landowner from building the DEA facility on this property. DEA officials
told us this was because the DOD believed the security of its Southern
Command could be compromised by potential narco-terrorists if the facility
were built, in part because a building on the site would block the view of the
Southern Command’s trespassing detectors. The Department of Justice
represented the DOD in this matter, and as a result of these proceedings,
the plan for the new laboratory was not fulfilled.

      Congress has approved the use of carry-over funds from prior fiscal
years for a new plan to replace the Southeast Laboratory. The Deputy


       62
            The Northeast Laboratory has also not been replaced, but the only condition cited
in the prior audit was insufficient vault space to store bulk evidence. The Northeast and
Western Laboratories had also both been refurbished within the last 3 years before the prior
audit, and that audit found that they did not need to be replaced. The information we
obtained during this audit continues to support the prior finding that these two facilities are
adequate.


                                            - 44 -
                                 REDACTED VERSION


Assistant Administrator told us that the DEA is moving the project along as
fast as possible. During March 2003, the prospectus for the project was
awaiting approval by the Office of Management and Budget.

Current Conditions

       We observed conditions in each laboratory we visited. We also
reviewed reports of two studies performed at the Southeast Laboratory that
identified serious problems with the facility. For the other laboratories we
visited, we selected conditions from the Ventilation Assessment and the
Industrial Hygiene Survey that had been performed for the Southeast
Laboratory, and observed selected standards from the National Institutes of
Justice Forensics Laboratory Handbook. The following describes the results
of our visits to regional laboratories.

        Southeast Laboratory. The Southeast Laboratory is still located in the
facility visited during the 1995 audit. The building in which the laboratory is
located was built over 25 years ago. Office space was modified to serve as a
laboratory and evidence repository. The conditions at the facility are
deficient. For example, employees at the laboratory are not included in the
DEA Drug Deterrence (employee testing) Program because the facility’s
ventilation and exhaust systems do not provide a non-contaminated
environment.

      At the time of the prior audit, the laboratory had space for two groups
of chemists and needed space for a third group. The vault was too small to
hold all the evidence [DELETED].
      The only change we found during the current audit was that space had
been added and modified for a third laboratory group. [DELETED]


        At the DEA’s request, the Federal Occupational Health Service of the
U.S. Public Health Service (PHS) conducted a ventilation assessment of the
facility in September 2002. In its report dated April 7, 2003, the PHS
concluded that the building was not suitable for use as a laboratory because
of the potential health and safety effects on employees.6 3 The PHS
recommended that the laboratory and its support operations be relocated to
temporary facilities, and that planning for “fast track” facility construction,
major renovations, or lease space build out should be initiated immediately.


       63
           There was nothing in the PHS report or in our findings to suggest that the facility
conditions affected the validity of laboratory results. The focus of the PHS report was
employee health and safety. The draft report was issued to the DEA November 20, 2002.



                                            - 45 -
                                 REDACTED VERSION


Specifically, the PHS found that:

      •     differential pressure relationships facility-wide were not acceptable,
            and air handling systems were in need of replacement or major
            refurbishment;
      •     maintenance of filters and plumbing leaks was unacceptable;
      •     HVAC systems were in extremely poor condition, showed evidence
            of poor maintenance, and HVAC control deficiencies needed to be
            addressed because of the facility’s temperature variations;
      •     the exhaust system for the south wing laboratory was a health risk
            and a possible breach of containment of contraband substances;
            and,
      •     the outdoor air intake for the south wing HVAC system was an
            indoor air quality and security issue.

     These findings were particularly troubling because many of them
repeated findings from a prior study. At the request of the DEA, the PHS
had also performed an Industrial Hygiene Survey, issued in November
2000, prior to the Ventilation Assessment. This survey found breathing
zone air samples for solvents below applicable standards, widespread
contamination of specific surfaces with controlled substances, and potential
sources of contamination from air handling units, condensate pans, and
water damaged ceiling tiles, among others.6 4 The report noted that
condensate pans did not drain properly and contained a slimy growth,
probably algae, which potentially amplify the growth of microbes and
present a significant heath risk. The report additionally described the
reentry of exhausts into the air intakes on the air handling unit located on
the roof as a potential source of contamination.

     In addition to several specific housekeeping recommendations, the
report recommended that the DEA discard water-damaged porous
materials, such as ceiling tile, to minimize the potential for amplification of
microbial growth. The report also recommended periodic maintenance of
the air handling units to ensure condensate pans are draining properly to
prevent the growth of algae and fungi. Conditions related to the air
handling units appeared to persist between the two reports in 2000 and


       64
           The survey found a toxigenic fungus (Stachybotrys chartarum), in ceiling tiles
near the ventilation registers/vents in the main vault. The report noted that some people
are very susceptible to respiratory distress due to exposure to fungi (mold), and that large
populations of these microbes tend to degrade the indoor air quality and cause some
employees distress. Two of our three auditors experienced notable eye irritation and other
allergy symptoms throughout the laboratory.



                                           - 46 -
                                REDACTED VERSION


2002, and laboratory officials told us there had been no major renovation of
the air handling units.

      Southeast Laboratory officials indicated they worked through the
General Services Administration (GSA) to try to obtain major renovations for
the laboratory, but that they deal with the landlord directly on everyday
maintenance issues. The laboratory officials did not believe that the GSA
had attempted to use enforcement measures to enforce terms of the lease
with either the previous or the current landlord.6 5 Laboratory officials also
told us that the previous landlord had not been responsive to problems, but
that the new landlord is more responsive. We also found that the Southeast
Laboratory was not documenting its maintenance requests to the landlord
for services. In our judgment, documentation should be maintained and
used to obtain needed improvements and help enforce the terms of the
current lease. Until the Southeast Laboratory is improved or relocated, the
indoor air quality presents potential health risks.

     North Central Laboratory. The North Central Laboratory in Chicago is
housed in an older office building, but the facility appeared adequate to
support its work. Space for this laboratory had been modified to meet new
laboratory standards during the prior audit. We noted no significant
problems at this location.

      South Central Laboratory. Based on our site visit and interviews with
DEA staff, we determined that the newly constructed facility for the South
Central Laboratory in Dallas provided excellent working conditions and space
for the laboratory, administrative, vault, and loading dock areas. Security
measures at the new laboratory are satisfactory overall [DELETED].




       65
           Laboratory officials told us that ownership of the office park had changed hands
within the past two years.


                                           - 47 -
                                REDACTED VERSION




      Western Laboratory. The Western Laboratory is housed in an older
office building with inadequate vault space and a history of ventilation
problems.6 6 Employees of the Western Laboratory, like those in the
Southeast Laboratory, are not subject to the DEA’s drug testing program
because indoor air contamination would invalidate the results. The
laboratory recently made improvements to the ventilation in the main
evidence vault and to fume hoods, but no ventilation assessment has been
made since the improvements, and some laboratory employees were not
convinced the vault ventilation had been adequately improved. The
laboratory is also planning to lease new space in the building to expand the
main evidence vault. The facility otherwise appears adequate to support the
laboratory’s work.

Conclusion

      The DEA has replaced the STRL, Mid-Atlantic, South Central, and
Southwest Laboratories with new facilities that are adequate. The Southeast
Laboratory, however, has not yet been replaced or relocated, and it has
serious ventilation problems with potential health risks to employees. The
Western Laboratory also is located a building with a history of significant
ventilation problems. Southeast and Western Laboratory employees are not
subject to the DEA’s drug testing program because of indoor air
contamination.

      The Department of Defense opposed the DEA’s original plan to replace
the Southeast Laboratory facility by January 2002. The DEA has obtained
funding from Congress for a new construction plan which is proceeding
through approvals to replace the laboratory. The DEA should act as quickly
as possible to relocate the Southeast Laboratory, ensure that employees at
the Southeast and Western Laboratories are not exposed to toxigenic or
other substances that could affect their health detrimentally [DELETED].



       66
         Like the Southeast Laboratory, there was no indication that the ventilation
problems would have affected the validity of laboratory results.


                                          - 48 -
                           REDACTED VERSION


the    [DELETED]      identified at the Southeast and South Central
Laboratories.

Recommendations

We recommend the DEA:

 9. Ensure the Southeast Laboratory is relocated to a suitable facility as
    soon as possible.

10. Ensure that improvements are made to correct the ventilation
    [DELETED] problems at the Southeast Laboratory pending relocation.

11. Ensure the ventilation system and fume hood improvements in the
    Western Laboratory are effective.

12. Ensure that the Southeast Laboratory maintains complete records of
    requests for services from the leaseholder.

13. Press the GSA to enforce all terms of the lease for the Southeast
    Laboratory.

14. [DELETED]

15. [DELETED]




                                    - 49 -
                               REDACTED VERSION


                                                                         APPENDIX I

            AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of the audit were to evaluate how effectively the Drug
Enforcement Administration’s (DEA): 1) forensic services support the
investigation and prosecution of drug cases and the gathering of drug
information for intelligence purposes, and 2) laboratories manage evidence
and other controlled substances to prevent loss or compromise.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objectives.

     This audit was performed as a follow-up to Office of the Inspector
General (OIG) Report 95-18, Drug Enforcement Administration’s Laboratory
Operations, issued in May 1995.

     Generally, the audit focused on the regional laboratories that analyze
and maintain custody of evidence submitted by domestic law enforcement
agencies. We also evaluated work performed by the Special Testing and
Research Laboratory (STRL) and the Digital Evidence Laboratory (DEL).

      We performed fieldwork at the following locations:

      DEA Headquarters                   Arlington VA
      Southeast Laboratory               Miami FL
      South Central Laboratory           Dallas TX
      North Central Laboratory           Chicago IL
      Western Laboratory                 San Francisco CA
      STRL                               Sterling VA

       We did not visit the DEL because it handles a small number of exhibits
and does not store evidence following completion of analysis. We did include
digital evidence exhibits in the sample for which we surveyed customers
about outcomes, satisfaction, and timeliness of laboratory services, and we
obtained data to use to calculate turnaround time.6 7

      67
          The sample was selected from data in the System to Retrieve Information on
Drug Evidence (STRIDE).


                                         - 50 -
                           REDACTED VERSION



      The audit period covered fiscal years 2000, 2001, and 2002.

      We interviewed 86 officials from the DEA’s Office of Forensic Sciences,
Office of Intelligence, Office of Inspections, Office of Professional
Responsibility, and managers and staff at the STRL and the four regional
laboratories we visited. We also interviewed 21 customers of laboratory
services at: 1) the Office of National Drug Control Policy; 2) the U.S.
Customs Service; 3) the Federal Bureau of Investigation, 4) the Metropolitan
Police of the District of Columbia; and 5) DEA Field Divisions in Miami,
Chicago, Dallas, and San Francisco.

      To obtain background information related to the DEA’s performance of
forensic services, we:

  •   Reviewed information on the DEA’s mission, its laboratories, services,
      and customers.

  •   Reviewed audit and inspection reports issued previously to identify
      findings and recommendations related to the DEA laboratories, and
      determined the status of issues addressed in OIG Audit 95-18.

  •   Reviewed DEA guidelines for laboratory operations in the DEA
      Laboratory Operations Manual and Laboratory Operations Handbook.

  •   Reviewed DEA guidelines for agents about evidence handling and
      communication with the laboratories.

      To evaluate how DEA managed the quality of laboratory services, we:

  •   Assessed the professional accreditation status of the laboratories
      through interviews and review of documentation about accreditation.

  •   Evaluated the DEA’s system of internal reviews of the laboratories
      through interviews of responsible officials and examination of reports
      and follow-up correspondence pertaining to the internal reviews.

  •   Reviewed Laboratory Orders issued by the laboratories we visited to
      determine compliance with DEA guidelines.

  •   Tested laboratory compliance with selected quality management
      standards set by the DEA and the American Society of Crime
      Laboratory Directors / Laboratory Accreditation Board (ASCLD/LAB),
      including proficiency testing requirements, equipment calibration


                                    - 51 -
                           REDACTED VERSION


      schedules, reviews of analytical reports, safety reviews, and testing of
      reagents.

     To assess outcomes and timeliness of laboratory services and overall
customer satisfaction, we:

  •   Surveyed federal customers about laboratory services for a statistical
      sample, taken from the DEA’s STRIDE, of 635 specific drug,
      fingerprint, and digital exhibits associated with closed cases. We also
      surveyed 9 state and local customers.

  •   Evaluated how often suspects have been identified using management
      information the laboratories report to the DEA.

  •   Surveyed customers to determine if services for the sampled exhibits
      were provided in time to be useful to them.

  •   Analyzed data to determine turnaround times from the receipt of
      exhibits by laboratories to the completion of analyses.

  •   Surveyed customers to rate laboratory services on a scale of 1 to 5 for
      the sample of exhibits.

  •   Interviewed customers to determine their satisfaction with services.

     To assess the quality of the DEA’s management controls over evidence
and other controlled substances, we:

  •   Reviewed DEA guidelines and interviewed headquarters managers and
      staff about policies and procedures for the receipt, storage, transfer,
      and disposal of evidence exhibits.

  •   Reviewed internal DEA reports for: 1) findings related to management
      controls and 2) follow-up correspondence with the laboratories to
      resolve and close findings.

  •   Observed laboratory practices, reviewed documentation, and
      interviewed laboratory officials and personnel concerning management
      controls.

  •   Reviewed annual inventory reconciliations performed with DEA field
      offices for ensuring that exhibits were adequately reconciled.




                                    - 52 -
                             REDACTED VERSION


   •   Tested inventories for the existence and weights of a total of 370
       exhibits in vaults at the four regional laboratories we visited.

   •   Verified the status of judgmental samples of exhibits over 10 years old
       still in inventories.

   •   Verified control documents for a judgmental sample of 218 case files in
       the four regional laboratories we visited, and compared data between
       the case files and STRIDE.

   •   Tested whether exhibits currently transferred out of the laboratory for
       court purposes were in the custody of the DEA Field Division.

   •   Determined whether exhibits were held out of the vault by analysts for
       more than 30 days overall and more than 5 days after completion of
       analysis.

   •   Reviewed records of destruction events performed by the regional
       laboratories and determined if all destructions had been adequately
       reconciled and recorded.

   •   Identified inventory discrepancies found by DEA by reviewing internal
       DEA reports for findings related to missing evidence or existing
       evidence that was recorded as having been destroyed.

   •   Interviewed an official of the DEA’s Office of Professional Responsibility
       and an OIG investigator to determine if weaknesses in evidence
       controls had been identified through internal or OIG investigations.

   •   Interviewed laboratory personnel and tested judgmental samples of
       inventories of other controlled substances.

     To follow up on the condition of laboratory facilities and the status of
new laboratory construction, we:

   •   Interviewed DEA officials.

   •   Reviewed DEA and Public Health Service reports on facility conditions.

   •   Observed conditions on-site at the four laboratories we visited.




                                      - 53 -
                                   REDACTED VERSION
                                                                                    APPENDIX II
              DEA FORENSIC SERVICES CASE OUTCOMES QUESTIONNAIRE
                                                   Sample Number: «Sample_No»

 Case Number             «Case_Number»               Exhibit Number       «Exhibit_Number»


1. What type of forensic service(s) did your office request from the DEA laboratory for this
exhibit? Please check ALL that apply to this exhibit.

?   drug analysis                        ? clandestine lab assistance
?   expert witness testimony             ? latent fingerprint analysis
?   computer / digital analysis          ? technical assistance
?   other – explain: _______________________________________________________

2. What was the role of the laboratory’s analysis or other services on the outcome of the
case/situation? Please check ALL that apply.

? assisted an investigation / contributed to case progress or focus
? helped to identify, confirm, or eliminate a suspect
? contributed to a prosecution (Please identify the prosecuting office below.)
     ? USAO (City) ______________________ ? Other_________________________
? contributed to a conviction
? contributed to an appropriate sentence
? other – explain: ________________________________________________________

3. Was the lab’s service on this exhibit provided in time to be useful?     Yes ?     No ?
If no, please explain using the back or another sheet.

Please respond to 4.a., b., and c. if there has been at least one prosecution that relied in part on
this exhibit. If the answer to 4.a or 4.b is yes, please explain the issue(s) and outcome(s), using
the back or another sheet.

        4.a. Were the results of the analysis and/or forensic expert testimony on this exhibit
        successfully challenged? Yes ?        No ? Not applicable (N/A) ?

        4.b. Was the case/situation plea-bargained (downward) or otherwise compromised due
        to problems with the laboratory’s services on this exhibit? Yes ? No ? N/A ?

        4.c. Did the defense stipulate to the laboratory analysis and / or expert forensic
        testimony?     Yes ?       No ?       N/A ?

5. On a scale of 1 to 5 (with 1 being poor and 5 being excellent), how would you rate the overall
quality of the forensic service(s) you received from DEA?

If you wish to provide additional comments about laboratory services, please do so on
the back or on a separate sheet, and cite case and exhibit numbers, if appropriate.

PERSON COMPLETING QUESTIONNAIRE: ___________________________________

TITLE: ____________________________ OFFICE: _____________________________

_____________________________________________                _________________________
 Name of a Contact Person for Follow-up                       Phone Number

                                              - 54 -
                   REDACTED VERSION


                                            APPENDIX III

DRUG ENFORCEMENT ADMINISTRATION’S RESPONSE TO THE DRAFT
                    AUDIT REPORT




                         - 55 -
REDACTED VERSION




     - 56 -
REDACTED VERSION




     - 57 -
                            REDACTED VERSION


                                                                 APPENDIX IV

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS
   AND SUMMARY OF ACTIONS NEEDED TO CLOSE T HE REPORT

      The Drug Enforcement Administration (DEA) agreed with all of the
audit recommendations in its response of February 4, 2004, and provided an
Action Plan statement for each recommendation.

Recommendation
Number

1.   Resolved. In response to the recommendation that the DEA consider
     allocating resources for fingerprint and digital evidence positions that
     would support turnaround times comparable to those for drug services,
     the Action Plan indicates that the DEA’s Office of Forensic Sciences will
     continue to pursue additional positions for the latent print and digital
     evidence programs. The cover memorandum dated February 4, 2004,
     contains the DEA’S commitment to pursuing enhancements to
     resources.

     We can close this recommendation when the DEA provides evidence
     that additional fingerprint and digital evidence analyst positions have
     been funded, or of reasonable attempts to identify resources to increase
     the number of latent print and digital evidence positions.

2.   Resolved. To ensure that supervisors of fingerprint specialists are
     qualified and experienced in the analysis of latent prints, the DEA plans
     to pursue supervisory latent print positions and to assign more technical
     oversight responsibilities to the Senior Fingerprint Specialists in each
     laboratory until positions are obtaine d.

     We can close this recommendation when the DEA: 1) provides a
     description of the technical oversight responsibilities that have been
     assigned to Senior Fingerprint Specialists, and how they have been
     implemented; and, 2) provides notice that supervisory positions have
     been established.

3.   Resolved. The DEA plans to provide direct access to additional local,
     state, and regional latent print databases by finalizing the identification
     of databases to determine which would be most beneficial, obtaining
     funding, and implementing the connections by December 31, 2005.




                                     - 58 -
                            REDACTED VERSION


     We can close this recommendation when the DEA provides a list of
     databases to which direct access has been implemented since July
     2003.

4.   Resolved. In response to the recommendation that the DEA provide
     detailed instructions and training for agents to ensure the proper
     handling of exhibits critical for latent print analysis, the Action Plan
     indicates that the DEA will review and revise the curriculum used to
     train agents regarding the handling of fingerprint evidence.

     We can close this recommendation when the DEA provides
     documentation of the revised curriculum, a statement regarding its
     adequacy by the Office of Forensic Sciences, and its implementation.

5.   Resolved. To address the recommendation that the use of DEA
     fingerprint specialists at crime scenes be increased, the Action Plan
     indicates only that additional positions will be pursued. (These positions
     will be pursued in recommendation 1.) We agree that increased staffing
     is an important part of the solution, but also believe additional
     coordination with targeted Field Offices might increase the use of
     existing fingerprint specialists at selected crimes scenes independent of
     obtaining additional positions. Increased coordination with field offices
     may be needed even after any new positions have been filled.

     We can close this recommendation when the DEA provides evidence
     that additional fingerprint positions have been funded, and of outreach
     to targeted Field Offices to increase the participation of available
     fingerprint specialists at crime scenes as resources permit.

6.   Resolved. The actions DEA has planned to ensure that potential latent
     print residues are protected at the laboratories are to review and revise
     policy and provide additional training to chemists regarding the handling
     of drug packaging to protect latent prints.

     We can close this recommendation when the DEA provides revised
     policy guidelines and information on training provided to chemists.

7.   Resolved. In response to the recommendation that laboratories use
     standardized procedures for recording information in data systems to
     ensure that all types of exhibits are tracked appropriately, and that the
     new information system will clearly track analysis data and turnaround
     time for all types of exhibits and analyses, the Action Plan indicates that
     the DEA will continue to pursue implementation of a new information



                                     - 59 -
                           REDACTED VERSION


     system that will track analytical results and provide management
     reports for all types of evidence.

     We can close this recommendation when the DEA provides 1) a
     statement that all laboratories now record the Southeast Laboratory
     records all fingerprint exhibits in STRIDE, and 2) documentation
     showing that the new system has been implemented and tracks analysis
     results and turnaround times for all types of exhibits and analyses.

8.   Resolved. The Action Plan states that the DEA will monitor compliance
     with the 90-day destruction policy over the next 12 months and take
     additional action, if necessary.

     We can close this recommendation when the DEA reports the results of
     the compliance monitoring, including additional actions planned, if
     appropriate.

9.   Resolved. The DEA plans to monitor the progress of the building
     prospectus that the General Services Administration has submitted to
     the Office of Management and Budget to ensure the Southeast
     Laboratory is relocated to a suitable facility as soon as possible.

     We can close this recommendation when the DEA provides
     documentation that the laboratory has been relocated to a suitable
     facility.

10. Resolved. [DELETED]




11. Resolved. To ensure that the ventilation system and fume hood
    improvements at the Western Laboratory were effective, the DEA plans


                                   - 60 -
                           REDACTED VERSION


    to obtain and review the final report of the industrial hygiene survey
    that was conducted in March 2003, and take any additional action that
    may be necessary.

    We can close this recommendation when DEA provides the report of the
    industrial hygiene survey showing the problem was corrected, and
    documentation of the results of any additional actions that may be
    needed to correct the situation.

12. Resolved. The DEA responded to the recommendation that the
    Southeast Laboratory maintain complete records of requests for
    leaseholder services by indicating that the Director of the Southeast
    Laboratory has been maintaining a complete record of requests for
    services from the leaseholder.

    We can close this recommendation when we receive a copy of the
    documentation of requests for services being maintained by the
    Southeast Laboratory.

13. Resolved. The Action Plan indicates that the GSA has taken action to
    ensure compliance with the terms of the lease for the Southeast
    Laboratory. This needs to be a continuing effort on the part of GSA to
    ensure that systems are maintained adequately.

    We can close this recommendation when we receive a description of
    actions by the GSA since our site visit in March 2003.

14. Resolved. [DELETED]

15. Resolved. [DELETED]




                                   - 61 -
